   December 31, 2002




Acquisition
Management Controls Over
Proposed Prime Vendor Support for
the Army Apache Helicopter
(D-2003-038)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AAA                   Army Audit Agency
AMC                   Army Materiel Command
AMCOM                 Army Aviation and Missile Command
CEAC                  Army Cost and Economic Analysis Center
IPT                   Integrated Product Team
OIPT                  Overarching Integrated Product Team
OMB                   Office of Management and Budget
PEO                   Army Program Executive Office, Aviation
PVS                   Prime Vendor Support
PWS                   Performance Work Statement
WIPT                  Working Integrated Product Team
             Office of the Inspector General of the Department of Defense
Report No. D-2003-038                                                             December 31, 2002
      (Project No. D2000LH-0252)

          Management Controls Over Proposed Prime Vendor Support
                      for the Army Apache Helicopter

                                       Executive Summary

Who Should Read This Report and Why? This report should be read by officials
responsible for conducting studies of potential contracting-out efforts. The report
discusses the need to ensure that Government and contractor competition-sensitive data
are safeguarded. This includes ensuring that there is no appearance of a lack of
fairness or impartiality in the evaluation of Government and contractor proposals.∗

Background. In April 1997, the Army received an unsolicited contractor proposal to
provide Prime Vendor Support (PVS) for the Apache helicopter. In October 1997, the
Army made a preliminary determination that the contracting-out review requirements of
Office of Management and Budget (OMB) Circular No. A-76 were not applicable and
began pursuing a waiver from OMB Circular No. A-76 requirements. Although the
Army pursued the waiver request for more than 3 years until a decision was made on
November 28, 2000, not to further pursue the PVS initiative, the waiver was never
approved. The evaluation was performed in response to a Defense Hotline allegation
that the evaluation of the OMB Circular No. A-76 waiver request was flawed. After
performing a review of the allegation, the Inspector General of the Department of
Defense, Office of Departmental Inquiries concluded in a memorandum issued June 29,
2000, that there were no apparent violations of law or regulation by the two senior
officials identified in the allegation. Subsequently, we examined the management
controls relevant to the allegation. On December 16, 2002, additional information
provided by the Defense Hotline complainant of potential conflicts of interests and bias
by senior officials was provided to the Office of Departmental Inquiries for their
review.

The General Accounting Office also evaluated the Army’s initial PVS review efforts
and issued a report in July 1999 on the results of their review. The General Accounting
Office concluded that “As would be expected when a new concept of this magnitude is
introduced, there are significantly different views about various aspects of the proposal.
. . . Estimates of the cost differences between PVS and the Government’s best-case cost
study of the in-house approach vary significantly, and each is considered the most
cost-effective depending on which assumptions, including program requirements, are
used.”

Results. The Circular A-76 waiver process used for the PVS evaluation needed
clarification because of lack of specific guidance that addresses actual and apparent
conflicts of interest, separation of duties, use of a common requirements baseline, basis

∗
    The use of the term “Government proposal” should not be interpreted as a proposal submitted in
    accordance with a solicitation as required by the Federal Acquisition Regulation.
for determining whether costs are realistic and fair, and requirement for an independent
review of the cost comparison.

The Aviation and Missile Command and the Program Executive Office took actions to
safeguard Government and contractor-sensitive data. While we did not note any actual
instances of disclosure or transfusion of sensitive data, we identified instances where
multiple responsibilities assigned to three DoD employees created an opportunity for
inadvertent disclosure or transfusion of contractor proprietary data (Finding A).

The Government and contractor proposals were not based on a common requirements
baseline and an independent review of the costs was not performed (Finding B).

See the Findings section for the detailed recommendations.

Management Comments and Evaluation Response. The Director, Competitive
Sourcing and Privatization, Office of the Deputy Under Secretary of Defense for
Installations and Environment generally concurred with the report and suggested
revisions to the draft report and recommendations citing a need to work with OMB on
clarification of the OMB waiver policy. The Deputy for Systems Management, Office
of the Assistant Secretary of the Army (Acquisition, Logistics and Technology)
requested minor changes to several recommendations, but overall concurred with
modifying the Army A-76 implementing regulation guidance. The Deputy also
recommended that the recommendations to the Army be directed to the Army Assistant
Chief of Staff for Installation Management, the proponent for the Army A-76
implementing regulation guidance. Based on Management Comments, we revised the
recommendations and the addressee of the recommendations. We also received
comments from both the Defense Hotline complainant and the Army Aviation and
Missile Command. In response to the comments, we added clarifications to the report.
See the Findings section of the report for a discussion of management comments and
the Management Comments section of the report for the complete text of the comments
as well as in Appendix J and Appendix K. We request that the Deputy Under Secretary
of Defense for Installations and Environment and the Army Assistant Chief of Staff for
Installation Management provide additional comments on the revised recommendations
by March 3, 2003.




                                           ii
Table of Contents

Executive Summary                                                             i

Background                                                                    1


Objectives                                                                    7


Findings
     A. Guidance on Management Controls for Separation of Duties in the
           Circular A-76 Waiver Process                                       8
     B. Basis Used During Circular A-76 Waiver Process                       18

Appendixes
     A.    Scope and Methodology                                             26
     B.    Prior Coverage                                                    28
     C.    Glossary                                                          29
     D.    DoD Logistics Reengineering Efforts                               30
     E.    Chronology of Significant Events                                  32
     F.    Army Organization Structure in the Prime Vendor Support Program
              Evaluation Process                                             35
     G.    Army Participants and Roles in the Prime Vendor Support Program
              Evaluation Process                                             37
     H.    Compendium of Laws, Regulations, and Instructions                 40
     I.    Army Audit Agency Role in the Apache Prime Vendor Support
              Review                                                         45
     J.    Defense Hotline Complainant Comments on Draft Evaluation Report
              and Evaluation Response                                        50
     K.    Army Aviation and Missile Command Comments on Draft
              Evaluation Report and Evaluation Response                      63
     L.    Report Distribution                                               67

Management Comments
     Deputy Under Secretary of Defense for Installations and Environment     69
     Assistant Secretary of the Army (Acquisition, Logistics, and
       Technology)                                                           72
     Army Aviation and Missile Command                                       74
Background
           This evaluation was performed in response to a Defense Hotline allegation. The
           Defense Hotline allegation indicated that evaluation of an Office of Management
           and Budget (OMB) Circular No. A-76 (Circular A-76) waiver for the Apache
           helicopter Prime Vendor1 Support program (PVS program) by the Army was
           flawed (see Appendix C for a glossary of terms). The Inspector General of the
           Department of Defense, Office of Departmental Inquires initially reviewed the
           allegation for possible investigation of senior official misconduct. After
           performing a review of the allegation, in a memorandum issued on June 29,
           2000, the Office of Departmental Inquiries concluded that there were no
           apparent violations of law or regulation by the two senior officials identified in
           the allegation. Subsequently, we examined the management controls relevant to
           the allegation. On December 16, 2002, additional information provided by the
           Defense Hotline complainant of potential conflicts of interests and bias by senior
           officials was provided to the Office of Departmental Inquiries for their review.

           The Apache Helicopter. The Apache helicopter, introduced in 1983, is the
           Army’s premier aviation weapon system. The Apache helicopter mission as an
           attack helicopter is to perform rear, close, and deep operations and to provide
           armed reconnaissance and security. In February 1999, the Under Secretary of
           Defense for Acquisition and Technology (now Under Secretary of Defense for
           Acquisition, Technology, and Logistics) selected the Apache helicopter as one
           of 10 pilot acquisition programs for reporting to Congress as required by
           Section 816(a) of the National Defense Authorization Act for FY 1999 (see
           Appendix D for details on the reporting requirement and DoD logistics
           reengineering efforts).

           Submission of an Unsolicited Proposal for Apache Helicopter PVS Program.
           In April 1997 (see Appendix E for a chronology of significant events), the
           Commanding General, Army Aviation and Troop Command (now Army
           Aviation and Missile Command [AMCOM])2 received an unsolicited proposal
           from Team Apache Systems3 to provide a PVS program for the Apache
           helicopter. The intent of the PVS program was to provide streamlined and
           complete system management and logistics support for the Apache helicopter.

           Team Apache Systems’ Proposal for the PVS Program. The primary
           deliverable in the Team Apache Systems’ proposal (contractor proposal) for the
           PVS program was a specified number of flying hours per year and related

1
    Prime vendors typically are third-party contractors that buy inventory from a variety of suppliers, store
    the inventory in a commercial warehouse, and ship the inventory to customers when ordered. In the
    case of the Apache helicopter, the prime vendor concept was much different. The major equipment
    manufacturers for the Apache helicopter teamed together to propose a full range of logistics support,
    along with continuous product improvement and modernization as the PVS program.
2
    The acronym AMCOM is used throughout the report for ease of reference.
3
    The team initially formed by McDonnell Douglas Helicopter Systems, Lockheed Martin Electronics and
    Missiles, General Electric Engine Services, with Corpus Christi Army Depot, Texas, as a proposed
    partner. General Electric Engine Services subsequently became a subcontractor for engines.



                                                       1
           logistics support. The contractor proposal would transfer logistics support
           functions Government personnel performed to Team Apache Systems. Without
           additional data, however, the Army deemed the unsolicited proposal
           unacceptable. In total, the contractor submitted three proposals. The first was
           the unsolicited proposal (April 1997); the second was a more comprehensive
           proposal for negotiating a price (April 1998); and the third was the final,
           negotiated priced proposal (June 1998).

           Army Evaluation of the PVS Program. On May 1, 1997, the Commanding
           General, AMCOM learned that a decision to evaluate the PVS program was
           planned and that the evaluation would be led by a Headquarters, Department of
           the Army integrated product team (IPT). Also on May 1, 1997, the
           Commanding General, AMCOM requested that the Commanding General,
           Army Materiel Command (AMC) intervene to refocus the responsibility for a
           detailed analysis of the PVS program to AMC.

           Headquarters, Department of the Army-led IPT. In a memorandum signed
           May 7, 1997, the Assistant Vice Chief of Staff of the Army, the Deputy
           Commanding General, AMC, and the Military Deputy to the Assistant Secretary
           of the Army (Research, Development, and Acquisition) directed establishment
           of a Headquarters, Department of the Army IPT that would be chaired by an
           Army General Officer. The IPT was directed to assess the contractor proposal
           for the PVS program.

           At the same time, a General Officer Steering Committee4 was established to
           oversee the activity of the IPT. Guidance to the IPT required that any
           recommendations resulting from the process must at a minimum either maintain
           or improve the then-current Apache readiness. The IPT was also required to
           produce a specified level of savings with no additional investment of funds
           beyond the funding amount in the then-current Budget Estimate Submission and
           Program Objective Memorandum. The fiscal years for the Budget Estimate
           Submission and Program Objective Memorandum were defined as FY 1999
           through FY 2003, and for purposes of the evaluation, the fiscal years were to
           coincide with the maximum expected length of the contractor-based alternative
           of 5 years starting in FY 1999. The Headquarters, Department of the Army-led
           IPT ceased to function on May 23, 1997, and the Army Program Executive
           Office, Aviation (PEO) was designated as the lead agency for implementation of
           the PVS program.

           Army Program Executive Office, Aviation. In May 1997, the PEO was
           designated5 as the lead agency with support from and direct tasking authority
           within the AMC. The PEO reported to the Army Acquisition Executive, who
           also held the position of the Assistant Secretary of the Army (Research,
           Development, and Acquisition) [now the Assistant Secretary of the Army
           (Acquisition, Logistics, and Technology)]. The tasking to the PEO included,

4
    The General Officer Steering Committee was to include, at a minimum, 12 Lieutenant Generals and
    Major Generals, and 5 high ranking civilians.
5
    The designation was made by the Deputy Commanding General, AMC; the Director, Program Analysis
    and Evaluation; and the Acting Military Deputy to the Assistant Secretary of the Army for Research,
    Development, and Acquisition.



                                                    2
           but was not limited to, establishing target dates for preparing a Justification and
           Approval for Other Than Full and Open Competition, conducting Alpha contract
           negotiations, resolving Circular A-76 threshold issues, and completing a study
           of the cost of Government performance compared to the cost of contractor
           performance. The PEO was collocated with AMCOM at the Redstone Arsenal,
           Huntsville, Alabama, and delegated management of the PVS program to the
           Apache helicopter Project Manager.

           Apache Helicopter Project Manager. The Apache helicopter Project
           Manager, collocated with the PEO, further delegated management of the PVS
           program to the Apache helicopter Deputy Project Manager, who was designated
           chairman of the overarching integrated product team (OIPT). The chairman of
           the OIPT established four IPTs and four subordinate working IPTs (WIPTs).
           The tasks of those IPTs and WIPTs were to include developing the PVS
           baseline,6 the Alpha negotiation of a performance work statement (PWS), and a
           contract with Team Apache Systems; obtaining the Government proposal7 from
           AMCOM for inclusion in the Circular A-76 waiver package; performing a
           technical evaluation of competing proposals; and preparing a Circular A-76
           waiver. See Appendix F and for the Army organizational structure, and
           Appendix G for Army participants and roles in the PVS program management
           process.

           AMC and AMCOM Role in the Apache PVS Program. The May 1997
           memorandum that designated the PEO as the lead agency for implementation of
           the PVS program tasked AMC to support the Apache program manager in
           conducting the Alpha contracting. However, the details for such support were
           not provided in that memorandum. We were advised by an involved employee
           that as the effort to implement the PVS program continued, the role of AMC
           and AMCOM evolved. AMC and AMCOM employees became members of the
           Cost WIPT that developed the PVS baseline and compared the Government and
           the contractor proposals. AMC also provided guidance to AMCOM regarding
           development of the Government proposal as well as comments on the PWS for
           the PVS.

           AMCOM was an active participant in several other aspects of the PVS program.
           For example, AMCOM personnel who participated in preparing the
           Government proposal were members of the Technical Evaluation WIPT that
           evaluated the technical aspects of the Government proposal. AMCOM
           personnel were also members in the Logistics WIPT that prepared the PWS.
           AMCOM personnel also participated in the review of the Government proposal
           with the Army Cost and Economic Analysis Center (CEAC).

           CEAC Role in the Apache PVS Program. CEAC is a Field Operating
           Agency of the Office of the Assistant Secretary of the Army (Financial
           Management and Comptroller), and its Director is also the Deputy for Cost
           Analysis within the Office of the Assistant Secretary of the Army (Financial
           Management and Comptroller). We were advised by two of the involved

6
    For a description of PVS baseline, see “The Government Proposal” in the Background section.
7
    The use of the term Government proposal should not be interpreted as a proposal submitted in
    accordance with a solicitation as required by the Federal Acquisition Regulation.



                                                     3
           employees that CEAC participated in compiling and validating data for the PVS
           baseline; performed the review of the Government proposal with assistance from
           AMCOM; compared the Government proposal with the contractor proposal; and
           as a member in the Cost WIPT, prepared required equalizing adjustments.8
           CEAC also assisted the Army Audit Agency (AAA) in the review of the
           Circular A-76 waiver package. CEAC participation in the PVS program
           evolved from the participation of the Office of the Assistant Secretary of the
           Army (Financial Management and Comptroller) in the General Officers Steering
           Committee.

                  The General Officer Steering Committee designated the Office of the
           Assistant Secretary of the Army (Financial Management and Comptroller) as the
           lead agency for completing an evaluation of the cost of Government
           performance compared to the cost of contractor performance. The General
           Officer Steering Committee was also responsible for determining the PVS
           program financial impacts and recommending solutions. The CEAC mission
           and functions include managing development and maintenance of the Operating
           and Support Management Information System materiel cost database, which was
           used in developing the PVS baseline costs.

                   The sources of the Operating and Support Management Information
           System data are the Army standard management information system databases
           that capture actual spare parts consumption by Army units. The Army uses the
           Operating and Support Management Information System data to build its
           Operating and Support budgets. The data are used to compute weapon system
           cost factors such as cost per flying hour for each weapon system in the Army.
           Cost factors are input to the Army Training Resource Model, which directly
           computes Army Operating Support budget requirements.

           The Army Audit Agency. AAA involvement in the cost analysis of the PVS
           program began in August 1998. AAA participation was in response to taskings
           from the Under Secretary of the Army, Assistant Secretary of the Army
           (Acquisition, Logistics, and Technology), and the Assistant Secretary of the
           Army (Financial Management and Comptroller). AAA issued five consulting
           reports and provided multiple briefings to the Under Secretary of the Army on
           the results of those reviews of the PVS program. AAA reviewed the waiver
           package. Other taskings to AAA included a review of the impact on the Army
           Working Capital Fund, and PVS program cash flow. Further, AAA requested
           that the Technical Evaluation WIPT conduct a second review of the life-cycle
           cost reduction efficiencies that were claimed in the Government proposal. AAA
           began reviewing the PWS in February 2000. An AAA representative advised us
           that the review was discontinued after the PVS program was suspended in
           April 2000 as a result of a legal opinion by the office of the Army’s General
           Counsel regarding the financial treatment of the Apache helicopter parts
           inventory. The AAA was not tasked to perform the independent review


8
    In this report, we use the term “equalizing” adjustments to refer to “normalizing” adjustments.
    Normalizing adjustments are adjustments to the Government and contractor proposals that are meant to
    bring the Government and the contractor proposals to a common scope of work and performance
    standards.



                                                     4
functions described in the Circular A-76 Revised Supplement Handbook. See
Appendix I for additional information on AAA participation.

Team Apache Systems Proposals. In October 1997, both a Justification and
Approval for Other Than Full and Open Competition and an announcement in
the Commerce Business Daily for the PVS program included a summary of
requirements. The Procurement Contracting Officer advised us that Team
Apache Systems submitted a second proposal in April 1998 that was consistent
with the summary requirements in the Justification and Approval for Other Than
Full and Open Competition. Between April 1998 and June 1998, the
requirements were refined and agreed upon, along with contractor-proposed
price, at the conclusion of the Alpha negotiations. In June 1998, Team Apache
Systems submitted its third proposal, which included the price agreed upon
during the Alpha negotiations. The proposal was for a fixed-price incentive
contract with 1 basic and 4 optional years. That submission became the
contractor proposal.

The Government Proposal. The Budget Estimate Submission and Program
Objective Memorandum, defined as FY 1999 through FY 2003 for the
evaluation, was established in March 1998 as the PVS program cost baseline.
The primary source for the PVS baseline that CEAC compiled was the
Operating and Support Management Information System CEAC managed.
CEAC was also responsible for reviewing the reasonableness and reliability of
the PVS baseline. The PVS baseline comprised three appropriations:
Operations and Maintenance, Army; Operations and Maintenance, Army
National Guard; and Operations and Maintenance, Army Reserves. The total
PVS baseline was $1.832 billion. The funds were designated to be used for
Apache helicopter unit operations, end-item supply and maintenance, and direct
and indirect support. The PVS baseline excluded items such as ammunition,
crash damage, petroleum, and other related functions.

The head of the Business WIPT informed us that it was decided that the
Government should be able to offer improvements to the PVS baseline.
AMCOM was responsible for preparing the Government proposal. A combined
team that included analysts from AMC and AMCOM was formed in early
November 1997 to develop the Government proposal. The proposed
improvements were initiatives in the Program Objective Memorandum
documents used to determine the PVS baseline. Examples of those initiatives
were Modernization Through Spares (buying new, improved parts) and
Life-Cycle Cost Reductions (projects that could reduce maintenance and repair
costs of the Apache helicopter fleet). The resulting document, prepared by
AMCOM, became the Best Case Government Cost estimate (the Government
proposal).

In March 1998, the Commander, AMCOM informed the PEO that AMCOM
had completed the Government proposal and that the Government proposal
would be in the custody of AMCOM chief legal counsel and delivered with the
contractor proposal to the PEO. In March 1998, the Procurement Contracting
Officer and staff from the Business IPT were compiling a Circular A-76 waiver
request for PEO signature. The waiver process required an evaluation of
Government and contractor costs. In June 1998, the Government proposal was
delivered to the Cost WIPT for inclusion in the evaluation of Government and


                                   5
           contractor costs. The PEO informed us that in October 1998 he used that
           information to prepare the waiver. One of the functions of the Cost WIPT was
           to compare and equalize the Government and the contractor proposals.

           Congressional Notification and Sole Source Approval. In October 1997,
           Army notified Congress, in compliance with section 2461, title 10, United
           States Code of its intent to begin analyzing the PVS program for possible change
           to performance by the private sector. Further, in October 1997, the Acting
           Assistant Secretary of the Army (Research, Development, and Acquisition)
           [now Assistant Secretary of the Army (Acquisition, Logistics, and Technology)]
           signed the Justification and Approval for Other Than Full and Open Competition
           that designated Team Apache Systems the sole source for the acquisition. The
           Justification and Approval for Other Than Full and Open Competition states that
           “a preliminary determination has been made that the requirements of OMB
           Circular A-76 are not applicable because the effort represents a substantial
           business processes re-engineering of the logistics support function and its
           management.” The document also states, “Once the data necessary to make a
           cost comparison has been agreed upon by the Government and the contractor, a
           final determination will be made by the Department of the Army as to the
           applicability of Circular A-76. The contractor will be informed of the
           Government’s intent to make this comparison as part of the negotiation
           process.”

           Circular A-76 Waiver. In October 1998, the PEO prepared and submitted a
           request to the Assistant Secretary of the Army (Installations, Logistics, and
           Environment) [now Assistant Secretary of the Army (Installations and
           Environment)] for a Circular A-76 waiver. The waiver included an evaluation
           of Government and contractor costs to satisfy the Circular A-76 requirement
           that the waiver be accompanied by a detailed determination that the conversion
           had met one of the two prescribed conditions for waiver submission. The PEO
           request for Circular A-76 waiver states that, “A waiver to the formal cost
           comparison requirements of [Circular] A-76 is requested for Apache PVS
           because the Best Case Government organization or another contractor would
           have no reasonable expectation of winning a competition conducted under the
           cost comparison procedures of the Revised Supplemental Handbook.
           Additionally, the conversion will result in significant financial and service
           quality improvements and is not expected to significantly reduce the level or
           quality of competition in the future award or performance of work.”

           PVS Program, Round II. The AMCOM Procurement Contracting Officer
           informed Team Apache Systems in an October 4, 1999, letter that the agreement
           reached during the Alpha negotiations could not be executed because “the Office
           of the Secretary of Defense would not permit the decapitalization9 of the Army
           Working Capital Fund.” Briefing charts obtained from AMCOM and the PEO
           disclose that suspension of the program was effective September 2, 1999. In
           November 1999, the Under Secretary of the Army tasked AMCOM to review
           the inventory issue and update the Government proposal. The undertaking was
           referred to as the PVS program, Round II (PVS Round II). AMCOM

9
    Decapitalization is the transfer of fund inventories to other appropriations or funds without
    reimbursement.



                                                        6
     developed two alternatives. One alternative was to have the contractor replace
     in kind parts that the contractor withdrew. The other alternative was to have the
     contractor pay the Army Working Capital Fund for the parts that the contractor
     withdrew.

     In March 2000, the Army Office of the General Counsel stated that both of the
     alternatives AMCOM developed had serious deficiencies and recommended
     pursuing a legislative relief that would allow issuing the inventory to the
     contractor without reimbursement. In April 2000, the Commanding General,
     AMCOM through the Commanding General, AMC informed the Assistant
     Secretary of the Army (Acquisition, Logistics, and Technology) that AMCOM
     was “doubtful that the PVS initiative can proceed,” and that “we have
     determined to postpone the use of further resources in the pursuit of PVS.”

     Status of the PVS Program. The Army position was provided in an Under
     Secretary of the Army memorandum to the Under Secretary of Defense for
     Acquisition, Technology, and Logistics dated November 28, 2000. The Under
     Secretary of the Army stated that the Army would not pursue the PVS initiative
     and that, in the short term, the contractor proposal did not appear to present a
     cost advantage over the Army’s plan. Reasons stated in the Army memorandum
     for not accepting the contractor proposal were that the 3-year-old cost data
     presented lacked currency and the Army legal counsel belief that the Army may
     need to undertake a Circular A-76 review.

     General Accounting Office Evaluation of Army PVS Review Effort. The
     General Accounting Office evaluated the Army’s initial PVS review effort. The
     results of that evaluation are presented in the July 1, 1999, General Accounting
     Office Report No. NSIAD 99-140, “Army Logistics Status of Proposed Support
     Plan for the Apache Helicopter.” The General Accounting Office in
     commenting on the PVS process reported that, “As would be expected when a
     new concept of this magnitude is introduced, there are significantly different
     views about various aspects of the proposal. . . . Estimates of the cost
     differences between PVS and the Government’s best-case cost study of the
     in-house approach vary significantly, and each is considered the most
     cost-effective depending on which assumptions, including program
     requirements, are used.”


Objectives
     Our overall evaluation objective was to evaluate the adequacy of management
     controls to preclude potential conflicts of interest and ensure the integrity and
     inclusiveness of data used for management decisions. See Appendix A for a
     discussion of the evaluation scope and methodology. See Appendix B for prior
     coverage related to the evaluation objective.




                                         7
            A. Guidance on Management Controls
               for Separation of Duties in the
               Circular A-76 Waiver Process
            AMCOM and the PEO took actions to safeguard Government and
            contractor competition-sensitive data. However, during the PVS process
            and the processing of a potential waiver to the Circular A-76 process,
            there was a lack of regulatory guidance and management controls that
            would ensure separation of duties when multiple responsibilities were
            assigned to DoD employees. While we did not note any actual instances
            of disclosure or transfusion of contractor proprietary data to employees
            involved in preparing the Government proposal or incorporation of such
            data in the Government proposal, we identified instances when such
            opportunities, and inadvertent disclosure of contractor proprietary
            information, could have occurred as a result of the multiple
            responsibilities assigned to three DoD employees. The condition
            occurred because the cited employee assignments were inconsistent with
            Part 3 of the Federal Acquisition Regulation and DoD guidance on
            management controls, which includes separation of duties. Further,
            limited regulatory guidance existed that addressed rules regarding
            conflicts of interest for Circular A-76 waiver evaluations of Government
            and contractor costs. As a result, an appearance of lack of fairness or
            impartiality in the evaluation of the Government and contractor proposals
            may have been created.


Criteria
     Federal Acquisition Regulation. Federal Acquisition Regulation
     subpart 3.101-1, “Standards of Conduct,” states, “Government business shall be
     conducted in a manner above reproach and . . . with complete impartiality and
     with preferential treatment for none,” also, “Transactions relating to the
     expenditure of public funds require the highest degree of public trust and an
     impeccable standard of conduct. The general rule is to avoid strictly any
     conflict of interest or even the appearance of a conflict of interest in
     Government-contractor relationships.”

     DoD Instruction 5010.40. DoD Instruction 5010.40, “Management Control
     Program Procedures,” August 28, 1996, includes by reference OMB Circular
     No. A-123 (Revised), “Management Accountability and Control,” June 21,
     1995. OMB Circular No. A-123 requires that agency managers shall
     incorporate basic management controls in the strategies, plans, guidance, and
     procedures that govern their programs and operations. OMB Circular
     No. A-123 also states that controls shall be consistent with the standards drawn
     primarily from the “Standards for Internal Control in the Federal Government,”
     issued by the General Accounting Office. The standards include compliance




                                         8
           with laws and regulations, separation of duties, and supporting documentation.
           See Appendix H for a compendium of laws, regulations, and instructions used in
           this evaluation.


AMCOM and PEO Actions
           AMCOM and the PEO took actions to safeguard Government and contractor
           competition-sensitive data. Those actions consisted of establishing an
           organizational structure for the working groups, ensuring availability of legal
           guidance, and executing nondisclosure statements.

           Working Groups Structure. The Apache helicopter Deputy Project Manager
           established an organizational structure for managing the PVS program. The
           established structure consisted of an OIPT, four IPTs, and four subordinate
           WIPTs (see Appendixes F and G), each in charge of a separate functional area
           consistent with Army Regulation 70-1, “Army Acquisition Policy,” December
           1997. In the first PVS program OIPT meeting that convened on June 10, 1997,
           the OIPT process was reviewed, WIPTs were established, and 33 issues were
           assigned to the WIPTs. Including the Army Office of the General Counsel,
           42 persons representing several levels of Army commands attended the June 10,
           1997, meeting.

           Legal Guidance on Data Firewalls. Early in the PVS program competitive
           process, AMCOM legal counsel advised AMCOM and PEO personnel about the
           need to safeguard contractor pricing data and maintain firewalls between
           individuals who had access to the contractor proposal and the Government
           proposal. During the OIPT meetings, the Deputy Project Manager for the
           Apache program also expressed the need for signed nondisclosure statements.

           Nondisclosure Statements. The PEO, AMCOM legal counsel, and
           Procurement Contracting Officer provided us with 201 nondisclosure statements
           signed by personnel (180 for Army personnel, 5 for personnel in other Defense
           organizations, 5 for personnel in non-Government organizations, and 11 for
           personnel in organizations that could not be identified) involved with the
           contractor proposal and the Government proposal. We did not determine
           whether other organizations retained nondisclosure statements. All of the
           seven employees who were alleged to have conflicts of interest because of their
           performance of multiple functions during the evaluations of the PVS program
           signed nondisclosure statements. Of the seven employees, four performed some
           functions that should have been performed by another individual. Those actions
           resulted in either actual or potential conflicts of interest for three employees, a
           question on independence for another employee, and created an appearance of a
           lack of fairness or impartiality in the evaluation of proposals. The employees
           were Employee A, Employee B, and Employee C [AMCOM], and
           Employee D10 [CEAC].



10
     Employee D actions are discussed in finding B.



                                                      9
Regulatory Guidance and Management Controls
     During the PVS process and the processing of a potential waiver to the
     Circular A-76 process, there was a lack of regulatory guidance and management
     controls that would ensure separation of duties when multiple responsibilities
     were assigned to DoD employees. Specifically, DoD guidance on conflicts of
     interest and separation of duties in processing Circular A-76 waivers was
     lacking. During the PVS process, some individuals performed multiple
     functions. Additionally, the roles and responsibilities of several individuals
     changed as they were assigned between IPTs and WIPTs that examined the
     contractor and the Government proposals. However, on April 3, 2000, the
     Under Secretary of Defense for Acquisition and Technology (now the Under
     Secretary of Defense for Acquisition, Technology, and Logistics) issued interim
     guidance, “Department of Defense Strategic and Competitive Sourcing
     Programs Interim Guidance,” which includes criteria for the Circular A-76
     waiver process. However, specific regulatory guidance regarding the
     organizational structure and avoidance of conflicts of interest for managing the
     waiver process was lacking. Because of the significance of waivers, we believe
     that the inclusion of such guidance would mitigate or minimize the problems
     raised in this evaluation, such as conflicts of interest and lack of separation of
     duties.


Opportunities for Inadvertent Disclosure of Contractor
  Proprietary Data
     While we did not note any actual instances of disclosure or transfusion of
     contractor proprietary data to employees involved in preparing the Government
     proposal or incorporation of such data in the Government proposal, we
     identified instances when such opportunities, and inadvertent disclosure of
     contractor proprietary information, could have occurred as a result of the
     multiple responsibilities assigned to three DoD employees.

            Employee A. Employee A was a senior member of the AMCOM
     Command Group who reported directly to the Commanding General, AMCOM.
     The directorate for which Employee A was responsible was identified by an
     AMCOM official as an organization that would be impacted by the results of the
     PVS program. Based on information an official from the PEO office provided,
     a CEAC employee, and Employee A, Employee A was assigned the following
     tasks during the PVS evaluation: co-study director and evaluator in the Cost
     WIPT (November 1997 through September 1998); assisting CEAC in reviewing
     the Government proposal (March 1998 through June 1998); and team member in
     the Technical Evaluation WIPT that performed a second review of the Life-
     Cycle Cost Reduction savings in the Government proposal (July 1999).
     Employee A and an AMCOM manager advised that Employee A was also an
     advisor to the Commanding General, AMCOM on issues related to the
     Government proposal, such as reasonableness of the estimate and sufficiency of
     the supporting documents for audit.



                                         10
               Cost WIPT. The Chief of the Business WIPT reported that the
Cost WIPT prepared the Government PVS baseline that was provided to
AMCOM for preparing its proposal. The Cost WIPT was also responsible for
comparing the Government and the contractor proposals and proposing
equalizing adjustments. In June 1998, the Cost WIPT received the Government
proposal, which continued to be updated through July 1998. In July 1998, the
Business IPT received the contractor proposal. The Cost WIPT compared the
two proposals, proposed equalizing adjustments, and concluded in September
1998 that the Government proposal would cost less than the contractor proposal.
The results were intended to be used to support the Circular A-76 waiver
request. The PEO disagreed with the results. The Procurement Contracting
Officer and a CEAC employee reported that the Procurement Contracting
Officer and a member of the Business IPT subsequently developed different
equalizing adjustments, which were included in the Circular A-76 waiver
request the PEO signed. During the assignment to the Cost WIPT, Employee A
prepared a comparative study plan intended for use in evaluating the contractor
and Government proposals. Later, Employee A reported that Employee E, who
was subordinate to him, attended the Cost WIPT meetings in the absence of
Employee A.

               Reviewing Government Proposal. Employee A and
Employee D reported that Employee A assisted Employee D, a CEAC
employee, in reviewing the Government proposal. We requested any documents
produced that included the results of the review. Employee A informed us that
no reports were issued on the results of the review, and Employee D informed
us that no documents on the results of the review were maintained.

                Technical Evaluation WIPT. The Technical Evaluation WIPT
reviewed the performance and technical aspects of the contractor and
Government proposals and issued two technical reports. The technical
evaluation reports discuss matters such as the Government-proposed
improvements to the Apache helicopter logistics support while contrasting
improvements to the contractor-proposed performance. The reports were
provided to AAA for use in the evaluation of the Circular A-76 waiver support
that the Assistant Secretary of the Army (Research, Development, and
Acquisition) (now Assistant Secretary of the Army [Acquisition, Logistics, and
Technology]) requested. One of the technical evaluation engineers informed us
that AAA requested that another independent technical review of the
Government proposal be performed, and an AAA representative informed us
that AAA requested a second look at the Life-Cycle Cost Reduction savings
claimed in the Government proposal. One of the technical evaluation engineers
also informed us that two members of the original five members in the
Technical Evaluation WIPT prepared a second technical report in response to
the AAA request, and Employee A informed us that he was assigned as a
member of the team and participated in performing the technical evaluation in
July 1999, even though he had no role in the first technical evaluation.

       The Technical Evaluation WIPT had access to, and evaluated, the
Government proposal Life-Cycle Cost Reduction projects and associated
savings. Employee A informed us that by the time he was assigned to the
Technical Evaluation WIPT, the Government proposal, the contractor proposal,



                                  11
        and the first technical report were known to him because of his membership on
        the Cost WIPT team. The second technical evaluation confirmed the results of
        the first evaluation.

                       Advisor to Commanding General, AMCOM. Employee A and
        an AMCOM manager informed us that during the process of evaluating the PVS
        program, Employee A was an advisor to the Commanding General, AMCOM
        on matters that related to the Government proposal. AMCOM was responsible
        for preparing the Government proposal. Employee A informed us that the
        Commanding General, AMCOM was knowledgeable regarding preparation of
        the Government proposal, as well as most aspects of the PVS program, because
        at least one AMCOM employee who was a member of the WIPT kept him
        informed of the PVS program progress. Also, in July 1998, Employee A had
        access to the contractor proposal as part of the comparison and equalization
        process by the Cost WIPT. We requested that Employee A provide any briefing
        charts used to inform the Commanding General, AMCOM. Employee A did
        not have the briefing material used to brief the Commanding General,
        AMCOM.

               We believe that an individual who assists a Commander in preparing and
        addressing issues that pertain to the Government proposal should not be
        involved in a comparative evaluation of the Government and contractor
        proposals and in making equalizing adjustments and recommendations as either
        a member of the Cost WIPT or the Technical Evaluation WIPT. The
        assignment of those multiple functions to the same individual creates an
        appearance of lack of fairness or impartiality by Government officials.

                Employee B. Employee B, a senior logistician, was an employee of
        AMCOM while involved with the PVS program. An AMCOM management
        official informed us that Employee B was one of the directly affected11
        employees whose position might have been abolished if the contractor proposal
        succeeded. Employee B was assigned to both the Logistics WIPT (July 1997
        through December 1999) and the AMCOM Government proposal team
        (December 1999 through March 2000), and had access to the contractor
        proposal.
                       Logistics WIPT. The Logistics WIPT, within the Alpha
        Contracting IPT, jointly prepared with contractor representatives the PWS,
        which formed the basis for the contractor proposal subsequently priced and
        negotiated. Employee B, the chief of the Logistics WIPT, informed us that he
        had access to, negotiated, and prepared the PWS. Employee B also worked on
        the draft Corpus Christi Army Depot/Boeing Teaming Agreement for
        performing repairs and overhaul of the Apache helicopter at the Corpus Christi
        Army Depot and participated in determining the workload hours that Team
        Apache Systems would fill.



11
  DoD Strategic and Competitive Sourcing Programs Interim Guidance dated April 3, 2000, defines
 “directly affected” civilian employees as a civilian employee (for example, DoD civilian,
 non-appropriated fund employee, or contractor) whose work is being competed.



                                                12
During the negotiations with Team Apache Systems, Employee B provided in an
e-mail to the chief of the Government proposal team (Employee C) a draft
teaming agreement and workload hours. Employee B explained that he
furnished the data to the Government proposal team because he believed the
teaming agreement and the workload hours were already known because PEO
personnel and the Procurement Contracting Officer had briefed the information
to the Corpus Christi Army Depot employee union and the maintenance officer.
However, Employee B could not provide information showing that PEO
personnel and the Procurement Contracting Officer had briefed the information
prior to his disclosure of the workload hours. We believe that Employee B
acted contrary to the legal counsel guidance to maintain firewalls between
individuals having access to the contractor and Government proposal, and in
contravention of IPT guidance regarding the exchange of information between
IPTs. However, we found no evidence of a direct competitive advantage being
provided to the Government by the disclosure of the draft teaming agreement or
workload hours.

               Government Proposal Team. In November 1999 during the
PVS Round II, the Under Secretary of the Army tasked AMCOM to update the
Government proposal. Employee B informed us that in December 1999,
AMCOM assigned him to the Government proposal team. As stated earlier,
Employee B was an affected employee whose position could have been
eliminated if Team Apache Systems won the competition. Employee B, whose
job would be affected and who had already had access to the contractor proposal
as a key AMCOM participant in the PVS program evaluation process, should
not have been assigned to the Government proposal team to preclude any
appearance that proprietary contractor information would be shared with the
team responsible for updating the Government’s proposal. Assignment of
Employee B to the Government proposal team in PVS Round II was inconsistent
with the management control standard for separation of duties. Assignment to
the Government proposal team was not appropriate because of Employee B
access to and involvement in the negotiations pertaining to the contractor’s
proposal, and the possibility of an inadvertent disclosure of proprietary
information and possible contractor innovations to the new Government proposal
team.
              Discussion With AMCOM Legal Counsel. During our review,
we asked AMCOM legal counsel to comment on statements Employee B made
to the evaluators that both the contractor and Government proposal sides had
questions regarding individuals moving between the contractor and the
Government proposal teams and that the AMCOM legal counsel was asked to
provide advice regarding the movement. To answer our question, the
AMCOM legal counsel informed us that personnel from the legal counsel
interviewed Employee B and searched their records for relevant information.
The AMCOM legal counsel provided us with the following response:

       By way of context, it is important to understand [that] the initial PVS
       acquisition had been cancelled in October of 1999 when OSD [Office
       of the Secretary of Defense] determined that the Army would not be
       permitted to decapitalize from the AWCF [Army Working Capital
       Fund]. Subsequently, the Under Secretary of the Army established a
       process action team (PAT) that met at Carlisle Barracks,



                                         13
       Pennsylvania, in December of 1999 in [an] attempt to devise other
       PVS implementation strategies that would permit working within the
       AWCF. The PAT developed two options that solved the AWCF
       decapitalization problem, but presented potential fiscal law
       difficulties. Accordingly, the PAT chose to obtain a legal opinion
       from DA [Department of the Army] Legal [counsel] to determine
       their legal sufficiency. This was done in January 2000. However, it
       was decided to move the Carlisle implementation process along
       without waiting for a final opinion from DA Legal. We are
       forwarding an e-mail concerning the initial kick-off meeting, which
       was scheduled by [Employee C] for 11-13 January 2000. [Employee
       C] had prepared team roster lists for the new cost comparison that
       would be conducted for the Carlisle initiative. [Employee B] had
       been placed on the new BCGC [Best Case Government Cost] team
       although he had previously been a member of the earlier PVS team
       and had participated in the alpha negotiation of the original proposed
       TAS [Team Apache Systems] contract. As the e-mail indicates, we
       asked to meet with [Employee C] concerning this development. At
       this meeting we advised him that we thought it was improper for
       [Employee B] to be a member of the new BCGC team due to the
       possibility of inadvertently disclosing confidential or proprietary
       information from the earlier PVS proposal to the new BCGC team
       even though the original nondisclosure statement signed by [Employee
       B] was still in effect. The issue became moot, however, on
       March 23, 2000 when Mr. Matt Reres, DA OGC [Office of General
       Counsel] issued a legal opinion finding that the two Carlisle developed
       options were legally unsound. Subsequent to this opinion, the
       Carlisle effort was abandoned and all teams were disbanded.

        Early in the process, the AMCOM legal counsel provided guidance
about the need for firewalls between Government and contractor proprietary
data and the need for those who had access to such data to sign nondisclosure
statements. The Apache PVS program was officially terminated in
November 2000 when the Under Secretary of the Army informed the Under
Secretary of Defense for Acquisition, Technology, and Logistics that the Army
would not pursue the PVS program. We believe that the discussed assignment
of Employee B is indicative of the need for statutory or regulatory guidance on
Circular A-76 waivers and for strengthening management controls that include
separation of duties as well as management control to preclude conflicts of
interest.

        Employee C. We were informed by Employee C, a supervisory
logistician, that he was an employee of AMCOM while involved with the PVS
program as the chief of the Government proposal team between November 1997
and approximately September 1999. Although not identified by an AMCOM
management official as an affected employee, Employee C was part of an
affected organization. As chief of the Government proposal team, Employee C
received the PVS baseline data and participated in the adjustment of the baseline
for planned efficiency initiatives. Employee C informed us that in December
1999, AMCOM assigned him to direct the PVS Round II. The PVS Round II
Team would have access to and review both the contractor and the Government
proposals. The PVS Round II was the Army attempt to pursue a modified PVS


                                         14
    program. The PVS Round II would include efforts such as updating the PWS,
    the Government proposal, keeping the Apache helicopter logistics support
    within the Army Working Capital Fund, and renegotiating the contract. The
    team would have access to the Government proposal because it was responsible
    for updating the proposal. The assignment of Employee C to the PVS Round II
    Team was also inconsistent with the management control standard of separation
    of duties. Moreover, to preserve an appearance of independence and
    impartiality, the chief of the Government proposal team should not participate in
    the subsequent evaluation of the adequacy of the Government proposal.


Formal Training
    An AMCOM management official informed us that AMCOM did not provide
    formal training on processing Circular A-76 waiver evaluations of Government
    and contractor costs to its personnel involved in the PVS program. Army
    Regulation 5-20, “Commercial Activities Program,” October 1, 1997, requires
    that Army major commands and their subordinate commands provide training on
    the policies and procedures on the Commercial Activities Program for their
    personnel. The head of the AMCOM strategic planning team, who was also in
    charge of the Government proposal team, agreed with the potential benefits
    from such training


Fairness or Impartiality in Evaluating Government and
  Contractor Proposal
    The assignments of the cited three employees were inconsistent with Part 3 of
    the Federal Acquisition Regulation and DoD guidance on management controls,
    which includes separation of duties. Lack of separation of duties resulted in a
    potential for conflicts of interest and may have created an appearance of lack of
    fairness or impartiality in conducting the evaluation of the Government and the
    contractor proposals. While we did not identify any actual instances of
    disclosure or transfusion of contractor proprietary data to employees involved in
    preparation of the Government proposal or the incorporation of such data in the
    Government proposal, we have identified instances when such opportunities,
    and the inadvertent disclosure of contractor proprietary information, could have
    occurred as the result of multiple responsibilities assigned to various
    Government employees.


Management Comments on the Finding and Evaluation
 Response
    Deputy Under Secretary of Defense for Installations and Environment
    Comments. The Deputy Under Secretary generally concurred with the findings
    but requested that two clarifications be made to the terminology used in the draft


                                        15
    report. The Deputy Under Secretary requested that references to “Government
    proposal” be changed to either “PVS baseline” or “Government performance”
    because the type of “Government proposal” referenced in the report is not the
    type of proposal required to be submitted in accordance with a formal
    solicitation the Federal Acquisition Regulation requires. The Deputy Under
    Secretary also requested that references to “cost comparison” waiver be changed
    to either “evaluation of Government and contractor costs” or to “the cost of
    Government performance compared to the cost of contractor performance”
    because a formal cost comparison process is not required to justify a waiver
    from Circular A-76 requirements.

    Evaluation Response. We added a footnote to clarify that use of the term
    “Government proposal” should not be interpreted as a proposal submitted in
    accordance with a solicitation the Federal Acquisition Regulation requires. We
    changed references to “cost comparison” waiver to generally either “evaluation
    of Government and contractor costs” or to “the cost of Government
    performance compared to the cost of contractor performance.”

    Other Comments. In addition to the comments requested from the Deputy
    Under Secretary of Defense for Installations and Environment and the Assistant
    Secretary of the Army (Acquisition, Logistics, and Technology), we also
    received comments from the Defense Hotline complainant and AMCOM. The
    comments from AMCOM were endorsed by AMC. The complainant comments
    and our response to those comments are summarized in Appendix J. The
    AMCOM comments and our response to those comments are summarized in
    Appendix K.


Recommendations, Management Comments, and Evaluation
  Response
    A.1. We recommend that the Deputy Under Secretary of Defense for
    Installations and Environment develop guidance that addresses actual and
    apparent conflicts of interest and segregation of duties for Circular A-76
    waiver evaluations of Government and contractor costs including a
    requirement for appropriate training.

    Office of the Deputy Under Secretary of Defense for Installations and
    Environment Comments. The Director, Competitive Sourcing and
    Privatization, Office of the Deputy Under Secretary concurred and requested
    changing the terminology “Circular A-76 waiver cost comparisons” to
    “Circular A-76 waiver evaluations of Government and contractor costs.” He
    also requested changing “Limiting membership of ‘directly affected’ persons in
    the working groups” to “Ensuring that ‘directly affected’ persons do not assist
    and are not members of any working group that has access to the contractor
    proposal, except when exempted by the head of contracting activity in
    accordance with ethics and standards of conduct rules and procurement
    restrictions in section 423, title 41, United States Code, and Federal Acquisition
    Regulation 3.104.”



                                        16
.

Evaluation Response. We made the requested changes to the report. We
request that additional comments be provided detailing the planned corrective
actions and estimated completion date for the actions.

A.2. We recommend that the Army Assistant Chief of Staff for Installation
Management update Army Regulation 5-20, “Commercial Activities
Program,” to require Army organizations that have oversight of Army
commercial activities procurements and Circular A-76 waiver evaluations of
Government and contractor costs develop a management control plan for
each procurement. The plan should include, at a minimum, descriptions of
the actions required to avoid conflicts of interest, including:

    a. Ensuring that ‘directly affected’ persons do not assist and are not
members of any working group that has access to the contractor proposal,
except when exempted by the head of contracting activity in accordance
with ethics and standards of conduct rules and procurement restrictions in
section 423, title 41, United States Code, and Federal Acquisition
Regulation 3.104.

    b. Separating the duties of persons responsible for preparing the
Government proposal, evaluating the contractor proposal, and evaluating
the Government and contractor costs, when possible.

   c. Limiting the number of persons who have access to and evaluate
both the Government and contractor costs, and carefully instructing such
persons regarding their responsibility, to include the nondisclosure of
contractor proprietary information.

   d. Providing appropriate training to employees involved in processing
Circular A-76 waiver evaluations of Government and contractor costs.

    e. Using legal services to assist in avoiding conflicts of interest.
Office of the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) Comments. The Deputy for Systems Management, Office of the
Assistant Secretary agreed with the revised recommendation but requested that
the recommendation be redirected to the Army Assistant Chief of Staff for
Installation Management.

Evaluation Response. We redirected the recommendation as requested. We
request that the Army Assistant Chief of Staff for Installation Management
provide comments detailing the planned corrective actions and estimated
completion date for the actions.




                                    17
                B. Basis Used During Circular A-76
                   Waiver Process
                The Government proposal used for the Circular A-76 waiver analysis of
                the PVS program was not based on the PWS that was negotiated with the
                contractor, and an independent review of the costs used in preparing a
                Circular A-76 waiver was not performed. Those conditions occurred
                because little statutory or regulatory guidance pertaining to
                Circular A-76 waivers existed at the time the majority of the PVS
                program actions took place. As a result, no assurance was present that
                costs used in preparing the Circular A-76 waiver were realistic and fair.


Criteria
        Section 2462, Title 10, United States Code. The need to conduct comparisons
        based on a common requirement baseline is in section 2462, title 10, United
        States Code (10 U.S.C. 2462). The 10 U.S.C. 2462 requires, “For the purpose
        of determining whether to contract with a source in the private sector for the
        performance of a Department of Defense function on the basis of a comparison
        of the costs of procuring supplies or services from such a source with the costs
        of providing the same supplies or services by the Department of Defense, the
        Secretary of Defense shall ensure that all costs considered . . . are realistic and
        fair.” The section does not address how costs will be determined to be realistic
        and fair.

        Army Regulation 5-20. Army Regulation 5-20 implements the requirements of
        Circular A-76. Army Regulation 5-20 states that the waiver request must
        contain documentation that demonstrates that the various legal restrictions on
        converting DoD functions to contract (such as Section 8015 of the FY 1997
        DoD Appropriation Act and 10 U.S.C. 2461, 2462, and 2465) do not apply.
        (Approval of an ‘OMB Circular A-76 waiver’ does not constitute a waiver of
        any law.)12
        Army Regulation 11-18. Army Regulation 11-18, “The Cost and Economic
        Analysis Program,” January 31, 1995, establishes responsibility and policy for
        the Army Cost and Economic Analysis Program. The regulation requires that
        CEAC implement the Army Cost and Economic Analysis Program and review
        cost and economic analyses or other cost comparisons. The regulation also
        requires that the CEAC administer the Visibility and Management of Operating




12
  On August 6, 1998, the Army Deputy General Counsel (Acquisition) informed the Military Deputy of
 the Assistant Secretary of the Army (Research, Development, and Acquisition) that the OMB Circular
 No. A-76 Revised Supplemental Handbook “makes clear that the issue of a cost comparison waiver only
 relieves an agency from the Circular and associated Handbook’s cost comparison requirements.”



                                                18
       and Support Cost Program process.13 In addition, the regulation requires that
       the Army validate cost and economic analyses and other cost comparisons to
       ensure currency, reasonableness, and completeness for use in decision making.


Performance Work Statement
       The Government proposal used for the Circular A-76 waiver analysis of the
       PVS program was not based on the PWS negotiated with the contractor.

       Preparing the Government Proposal. As the lead agency, the PEO was
       responsible, with support from AMC and AMCOM, for managing the PVS
       procurement and for preparing the PVS baseline, which was subsequently
       revised and became the Government proposal.
               Tasking for the PVS Program. The original tasking to the PEO from
       Headquarters, Department of the Army was to accomplish the PVS program
       within the funding constraints and limitations of the budget. The Budget
       Estimate Submission and Program Objective Memorandum, defined as FY 1999
       through FY 2003 for the evaluation, was established as the PVS baseline. The
       PEO informed us that the Army intended to compare the PVS baseline with the
       contractor proposal and determine whether the cost in the contractor proposal
       would be less than the PVS baseline while improving the then-current readiness
       levels. The unsigned minutes of a November 1997 meeting of the General
       Officer Steering Committee indicate that the committee approved details of the
       PVS baseline and methodology, pending final CEAC verification.

               The Government Proposal. After consultation between the PEO and
       the legal counsel of AMCOM, according to the Chief of the Business IPT, it
       was decided that the Government should be able to offer additional information
       or improvements to the PVS baseline. The additional information as well as any
       improvements would become a part of the Government proposal. Thus, the
       PVS baseline, prepared by the Cost WIPT, became the starting point for
       preparing the Government proposal. AMCOM adjusted the PVS baseline by
       subtracting the dollar amount for the savings from the Army’s planned
       improvements to derive the Government proposal. Examples of the Army’s
       planned improvements were initiatives such as Modernization Through Spares
       and Life-Cycle Cost Reductions. The Government proposal was dated
       March 1998.

       Development of a PWS. An AMCOM legal office representative informed us
       that AMCOM and the contractor developed a PWS during the Alpha
       negotiations. The PWS or equivalent document is used during the Circular
       A-76 process as a common basis by the contractor and the Government for
       comparison of proposals. The Procurement Contracting Officer and the chief of
       the Business IPT stated that the PWS was developed with participation from
       AMCOM personnel using a list of AMCOM missions and functions. The

13
  The Operations and Support Management Information System that is managed by CEAC is a major
 portion of the Visibility and Management of Operating and Support Cost program.



                                               19
    AMCOM legal counsel also reviewed the PWS for legal sufficiency. The
    AMCOM legal counsel concluded that the PWS met the criteria for legal
    sufficiency. Working jointly with the contractor, the Logistics WIPT prepared
    the PWS between January and June 1998 and coordinated the PWS with
    AMCOM and other Army organizations.

    Use of the PWS. The Army did not use the PWS as the basis when preparing
    the Government proposal. The head of the Government proposal team stated
    that the PWS was not used because the Government proposal was based on the
    information and data in the PVS baseline after adjustments for efficiencies.

    Comparability of the Contractor and the Government Proposals. As a
    result of using the adjusted PVS baseline rather than the PWS to prepare the
    Government proposal, the contractor and Government proposals were no longer
    comparable, as they were not based on a common level of performance.
    Guidance pertaining to Circular A-76 waivers did not address a requirement for
    a common requirements baseline and identification of costs to be included in the
    comparison. The PEO attempted to equalize the contractor and Government
    proposals and included the adjustments, that the PEO considered necessary, in a
    request for waiver of Circular A-76. The PEO used the Cost WIPT evaluation
    of Government and contractor costs as the starting point for the equalizing
    process in the waiver. Subsequently, AAA reviewed the Circular A-76 waiver
    and reached different conclusions regarding some of the equalization
    adjustments. Concurrent with AAA reviews and revisions of the Circular A-76
    waiver, the Office of the Army Deputy Chief of Staff (Operations and Plans)
    confirmed a need for additional services, such as engineering support, offered
    by the contractor. The revisions resulted in changes in the determination of
    whether the PVS function could be more economically performed by the
    Government or the contractor.


Independent Review
    An independent review of the costs used in preparing a Circular A-76 waiver
    request was not performed. Such an independent review should have been
    conducted by a person or organization who does not have a stake in the outcome
    of the review to ensure that the evaluation of Government and contractor costs
    estimate and any equalizing adjustments are current, reasonable, and complete
    for use in decision making.

    Importance of Independent Review. Conducting independent reviews of the
    Government proposal and the costs used in preparing the Circular A-76 waiver
    may have detected the lack of comparability between the Government and
    contractor proposals, and brought to management’s attention the issues of which
    costs are fair and realistic, and which costs should have been included in the
    waiver evaluation of Government and contractor costs. An independent review
    is an appropriate management control that provides an impartial and
    organizationally independent assessment of the validity for proposals and
    evaluations other organizations prepare. The separation of duties between the
    preparer or evaluator and the independent reviewer helps ensure that proposals
    and evaluations are realistic and fair. Conducting an independent review


                                       20
minimizes the potential for appeal on the decision of whether to grant a waiver.
In addition, existing regulatory guidance, though not explicitly applicable to
Circular A-76 waivers, indicates the importance and need for conducting
independent reviews because of the significance of resulting decisions. For
example, the “Army Economic Analysis Manual,” July 1995, requires that
economic analyses of high dollar value or high visibility have a thorough
validation. Also, Army Regulation 11-18 requires that the Army validate costs
and economic analyses and “other cost comparisons” to ensure currency,
reasonableness, and completeness for use in making decisions. According to
10 U.S.C. 2462, costs used when determining whether to contract with a source
in the private sector for performance of a DoD function are to be realistic and
fair. The statute does not describe how to ensure the requirement should be
achieved.

AMCOM Review. Review of the costs used in preparing the Circular A-76
waiver by a senior employee in the AMCOM command group (Employee A in
finding A) was not an independent review. Employee A and an AMCOM
manager informed us that Employee A acted as an advisor to the Commanding
General, AMCOM on issues that related to the Government proposal. An
AMCOM official informed us that the directorate for which Employee A was
responsible was identified as an organization that would be impacted by the
results of the PVS program. Employee A informed us that he was a member of
the Cost WIPT that developed the PVS baseline and participated in the
Government proposal review with CEAC Employee D. Also, Employee A was
a member of the Cost WIPT that compared the PVS baseline, the contractor
proposal, and the Government proposal. In addition, Employee D informed us
that Employee A was a member of the Technical Evaluation WIPT that
performed a second review of the reported Life-Cycle Cost Reduction savings in
the Government proposal. Employee A stated that his role throughout the
process was as an evaluator. Army policy in the Army Cost and Economic
Analysis Manuals requires that significant cost estimates shall be reviewed, and
that an organization independent of the one preparing the cost estimate shall
document the review. The Revised Supplemental Handbook to OMB
Circular A-76, Part I, chapter 3, paragraph I, also states that the independent
reviewer should be a qualified person from an impartial activity that is
organizationally independent of the commercial activity being studied and the
activity preparing the evaluation of Government and contractor costs. Under the
Army and OMB standards, the review of costs by Employee A was not an
independent review.

CEAC Review. Employee D, a CEAC mid-level employee, roles and actions
did not constitute those of an independent reviewer. Employee D informed us
that he participated in preparing the PVS baseline using data from the Army
Operating and Support Management Information System that CEAC managed.
The PVS baseline was the foundation for the Government proposal.
Employee D then participated in reviewing the Government and contractor
proposals as a member of the Cost WIPT. A person who participates in
preparing a cost baseline should not be involved in the review of such baseline.
The CEAC Cost Analysis Manual requires that the preparer of an estimate and
the reviewer of that estimate are separate. In addition, we believe that a person
who participates in performing the evaluation of Government and contractor
costs should not participate in a subsequent review of such costs with AAA.


                                    21
After the waiver was submitted in October 1998, AAA responded to various
taskings from the Under Secretary of the Army, Assistant Secretary of the Army
(Acquisition, Logistics, and Technology), and Assistant Secretary of the Army
(Financial Management and Comptroller). Employee D participated with AAA
through July 1999 in performing tasks related to the waiver evaluation of
Government and contractor costs.

Army Audit Agency (AAA) Review. AAA did not perform an independent
review of the Government cost estimate as defined in Army Regulation 5-20.
Army Regulation 5-20 requires the completed Government cost estimate and
supporting documentation be provided to AAA for independent review at least
60 days before that estimate is due to be submitted to the contracting officer. In
a review, AAA is required to verify the reasonableness of the cost estimates and
also to verify if the most efficient organization is based on the same work
performance requirements. AAA did not perform an independent review of the
Government cost estimate before the estimate was submitted to the contracting
officer. The AAA was tasked to provide consulting reports and briefings to the
Under Secretary of the Army and other Army officials after the waiver request
was submitted to the then Assistant Secretary of the Army (Installation,
Logistics, and Environment) for approval. AAA could not have performed the
independent review function because the Government proposal was based on
budgetary estimates. The Government never prepared a management plan or
most efficient organization. AAA could not make a determination that the
proposed most efficient organization and in-house cost estimate were adequate to
perform the PWS because the Government proposal was not based on a most
efficient organization and an in-house cost estimate, which was based on the
staffing and other costs reflected in the most efficient organization and
management plan. Consequently, AAA could not perform the type of
independent review required for Circular A-76 cost comparisons.

Determination of Retail Supply System Requirements in the Government
Proposal. One of the issues identified in the Defense Hotline allegation was
that the Government proposal understated the retail supply system requirements
applicable to the special repair activities. The PWS requires that the contractor
meet the requirements for the special repair activities. Both Employee C and
Employee D informed us that the Army Operating and Support Management
Information System used in preparation of the Government proposal did not
capture part of the retail requirements of the activities. We believe a review of
the Government proposal by an organization that did not assist in compiling
such a proposal might have identified the issue.

        AMCOM Response. The AMCOM response did not clarify how the
Government proposal included all retail supply system requirements. The
person in charge of preparing the Government proposal informed us that, under
the system that was in place when the Government proposal was prepared, if
retail parts requirements of the special repair activities were filled through the
wholesale supply system, then the requirements were captured in the
Government proposal. The AMCOM official did not comment on the manner
with which the CEAC-managed system processed the requirements and did not
state that retail supply system requirements were included in the Government
proposal.



                                    22
            CEAC Response. CEAC was aware of the missing requirements. A
    CEAC representative stated that until December 2000, a portion of the
    requirements for special repair activities was not captured by the CEAC-
    managed system (CEAC used that system to accumulate the PVS baseline
    costs). The CEAC representative also stated that the PVS function was to
    replace only the wholesale supply system and not the retail supply system
    requirements.

           Subsequently, two CEAC representatives stated that the missing
    requirements for the retail parts were known to the Cost WIPT and an
    adjustment to correct the error was made. However, the adjustment did not
    include the missing requirements, which was an oversight of the Cost WIPT.
    The CEAC representatives also emphasized that the missing requirements did
    not diminish reliability of the Operating and Support Management Information
    System because of the potentially small amount of understated requirement.

             Identification of the Missing Requirements. The PWS document
    required filling the retail supply system requirements of the special repair
    activities. Because it did not include all of the retail supply system
    requirements, the Government proposal was incomplete. Further, the AMCOM
    and CEAC reviews did not identify the missing requirements. An independent
    review might have detected the missing requirements. The scope of the
    independent review should have included an examination about whether the
    Government proposal was based on satisfying the requirements in the PWS
    prepared by the Government and the contractor during the Alpha negotiations.
    A review such as that would have identified the absence of a common basis for
    comparing the Government and the contractor proposals.


Statutory or Regulatory Guidance for Conducting
  Circular A-76 Waivers
    Little statutory or regulatory guidance pertaining to Circular A-76 waivers
    existed at the time the majority of the PVS program actions took place.
    However, on April 3, 2000, the Under Secretary of Defense for Acquisition and
    Technology (now the Under Secretary of Defense for Acquisition, Technology,
    and Logistics) issued interim guidance that included criteria for the
    Circular A-76 waiver process. Some of the terms included in the interim
    guidance were not sufficiently defined to avoid misinterpretation. Examples of
    terms that were not sufficiently defined were the requirement to include
    “sufficient justification, supporting analysis, and data” in the waiver request and
    the request shall include “detailed analysis . . . .”

    Because a waiver does not exempt DoD from applicable law, DoD guidance
    should address the statutory requirements pertaining to, and ambiguities in, the
    current guidance regarding Circular A-76 waivers. The guidance should
    include:

           •   comparison of competing proposals based on a common requirements
               baseline,


                                        23
           •   criteria for determining realistic and fair costs, and

           •   need to have significant cost estimates and comparisons reviewed by
               an independent organization.

     Because of the significance of waivers, we believe additional regulatory
     guidance is needed to ensure that Circular A-76 waiver evaluations of
     Government and contractor costs are conducted fairly and meet all statutory
     and regulatory requirements.


Conclusion
    In October 1997, the Army made a preliminary determination that the
    contracting-out requirements of OMB Circular A-76 were not applicable and
    began pursuing a waiver from Circular A-76 requirements. Although the Army
    pursued the waiver request for more than 3 years until a decision was made on
    November 28, 2000, not to further pursue the PVS initiative, the waiver was
    never approved. The lack of specific guidance for Circular A-76 waivers
    contributed to the lengthy and inconclusive review process. During the 3-year
    period, the PEO, AMCOM, CEAC, and AAA were involved in several studies,
    working groups, consulting reports, end-state analysis, Army Working Capital
    Fund impact analyses, cash flow analyses, and other reviews, in an effort to get
    agreement from all of the parties on a common baseline of equal performance
    and equal scope.

    No assurance existed that costs used in preparing the Circular A-76 waiver
    request were realistic and fair. Absence of clear statutory or regulatory
    guidance led to conflicting interpretations regarding the basis for determining a
    common requirement base and of what constitutes fair and reasonable costs to
    be considered for the Circular A-76 waiver evaluation of Government and
    contractor costs. Providing guidance for conducting Circular A-76 waivers,
    similar to that required for full Circular A-76 evaluations of Government and
    contractor costs, would help avoid many of the issues identified in this
    evaluation.

    On November 19, 2002, OMB proposed major revisions to OMB Circular
    No. A-76. OMB pointed out a variety of factors that have limited the Circular’s
    use and effectiveness including the factor that the competition process is
    complicated and not well understood.


Recommendations, Management Comments, and Evaluation
Response
    B.1. We recommend that the Deputy Under Secretary of Defense for
    Installations and Environment propose to the Office of Management and
    Budget during the revision to Circular A-76 to clarify procedures for cost
    comparison waivers that include the following:


                                        24
        a. Require the use of a common requirements baseline to determine
if a cost comparison waiver is justified.

       b. Require the use of fully allocated costs (in accordance with Office
of Management and Budget Circular No. A-76 Revised Supplemental
Handbook Part II and Department of Defense A-76 Costing Manual) to
determine the cost of in-house performance in evaluation against the cost of
contract performance for cost comparison waivers.

      c. State how the Government determines the basis for determining
whether private sector costs are realistic and fair when the basis for the cost
comparison waiver is based on a significant financial improvement.

       d. Require an independent review of the cost comparison waiver
analysis prior to approval.

Deputy Under Secretary of Defense for Installations and Environment
Comments. The Director, Competitive Sourcing and Privatization concurred
with the recommendation and requested that it be revised from the Deputy
Under Secretary of Defense for Installations and Environment developing
guidance regarding Circular A-76 cost comparison waivers to the Deputy Under
Secretary proposing that OMB during the revision to Circular A-76 clarify
procedures for cost comparison waivers.

Office of the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) Comments. Although not required, the Deputy for Systems
Management, Office of the Assistant Secretary agreed with this
recommendation.

Evaluation Response. We revised the recommendation as requested by the
Director. We request the Deputy Under Secretary provide comments detailing
the planned corrective actions.

B.2 We recommend that the Army Assistant Chief of Staff for Installation
Management, after the Office of Management and Budget issues the
guidance in Recommendation B.1., revise Army Regulation 5-20,
“Commercial Activities Program,” to identify the appropriate independent
review organization for Circular A-76 waivers.

Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Comments. The Assistant Secretary concurred and requested that the
recommendation be readdressed to the Army Assistant Chief of Staff for
Installation Management.

Evaluation Response. We redirected the recommendation as requested. We
request that the Assistant Chief of Staff for Installation Management provide
comments that will detail the planned corrective actions and estimated
completion dates for the actions.




                                   25
Appendix A. Scope and Methodology
   We reviewed the following documents:

          •   Allegation to the Defense Hotline;

          •   Applicable laws, regulations, and instructions;

          •   The Justification and Approval for Other Than Full and Open
              Competition, dated October 2, 1997; an announcement in the
              Commerce Business Daily for the Apache PVS program procurement
              dated October 27, 1997; and versions of the PWS dated January 19,
              1998, through January 12, 1999;
          •   The Team Apache Systems’ proposal (the contractor proposal)
              negotiated on June 22, 1998; the Best Case Government Cost (the
              Government proposal) dated March 20, 1998, including updates
              through July 1998; and the Circular A-76 waiver request dated
              October 20, 1998;

          •   Minutes of the General Officer Steering Committee between
              July 1997 and April 1998 and minutes of the IPTs from June 1997
              through November 1999;

          •   AAA consulting reports and briefing charts presented to Army
              decision makers from August 1998 through August 2000; AAA
              working papers and supporting documents; and CEAC supporting
              documents;

          •   201 nondisclosure statements signed by persons who participated in
              the Apache PVS program; and

          •   Numerous e-mail messages to and from numerous individuals at
              involved organizations.

   We visited and interviewed the originator of the Defense Hotline allegation and
   personnel in the following organizations:

          •   Office of the Principal Assistant Deputy Under Secretary of Defense
              (Logistics);

          •   Office of the Deputy Under Secretary of Defense for Installations and
              Environment;




                                      26
       •   Office of the Assistant Secretary of the Army (Acquisition, Logistics,
           and Technology); Office of the Assistant Secretary of the Army
           (Financial Management and Comptroller); Office of the Assistant
           Secretary of the Army (Installations and Environment); Army Office
           of General Counsel; Office of the Army Deputy Chief of Staff
           (Logistics); and

       •   AMC, Defense Logistics Agency, AMCOM, PEO, AAA, and
           CEAC.

Our evaluation scope was limited to reviewing compliance with management
controls applicable to the evaluation of the contractor proposal and the
Government proposal, as they relate to the Defense Hotline allegation. The
evaluation scope did not include an attempt to verify the appropriateness or
accuracy of dollar amounts shown in the contractor proposal and the
Government proposal or the adjustments made to each proposal. Further, the
evaluation scope did not include determining which of the two proposals would
be more advantageous to the Army.

We performed this evaluation from July 2000 through June 2002 in accordance
with evaluation standards established by the Inspector General of the
Department of Defense. This evaluation relied on review of documentation and
on testimonial evidence obtained through inquiries and interviews with the
personnel involved in the PVS process and the Circular A-76 waiver process.
We did not fully meet the Inspector General of the Department of Defense
evaluation standards. Specifically, we did not fully meet the evidence standards
set forth in Government Auditing Standards 6.46 that we have incorporated into
our evaluation standards. We were not able to fully verify all statements of fact
contained in the report and an experienced auditor having no previous
connection with the evaluation would have difficulty ascertaining from the
working papers evidence that supports the evaluators’ conclusions and
judgments. However, we believe that the verifiable information available is
sufficient to support the findings, conclusions, and recommendations made in
this report.

Use of Computer-Processed Data. We did not use computer-processed data to
perform this evaluation.

Use of Technical Assistance. Members of the Office of the General Counsel,
Office of the Inspector General of the Department of Defense reviewed the
evaluation report for legal adequacy and interpreted laws, regulations, and
instructions.

High-Risk Area. The General Accounting Office has identified several
high-level risk areas in DoD. This report provides coverage of the Defense
Inventory Management and the Defense Contract Management high-risk areas.




                                   27
Appendix B. Prior Coverage
    During the last 5 years, the General Accounting Office issued one audit report
    and the AAA issued five consulting reports that discuss the Apache helicopter
    PVS program. The Office of the Inspector General of the Department of
    Defense did not issue during the last 5 years any reports that discuss the PVS
    program. General Accounting Office reports can be accessed at
    http://www.gao.gov.


General Accounting Office
    General Accounting Office, Report No. GAO-01-630, “Defense Logistics:
    Information on Apache Helicopter Support and Readiness,” July 17, 2001

    General Accounting Office, Report No. NSIAD 99-140, “Army Logistics:
    Status of Proposed Support Plan for Apache Helicopter,” July 1, 1999


Army Audit Agency
    Consulting Report No. AA 00-704, “Review of the Apache Prime Vendor
    Support – Cash Flow Analysis,” October 19, 1999

    Consulting Report No. AA 99-762, “Review of the Effect of Apache Prime
    Vendor Support Contract on the Army Working Capital Fund,” June 25, 1999

    Consulting Report No. AA 99-733, “Review of the Best Case Government Cost
    to Support the Apache,” March 16, 1999

    Consulting Report No. AA 99-729, “Review of the A-76 Waiver Package for
    Apache Prime Vendor Support,” February 22, 1999

    Consulting Report No. AA 98-765, “Review of Apache Prime Vendor Support
    Contract,” August 17, 1998




                                       28
Appendix C. Glossary
   Alpha Contracting Negotiations. Alpha contracting is an innovative technique
   that converts the contracting process from a consecutive (and often iterative)
   process into a concurrent process. Alpha contracting relies on a team approach
   to concurrently develop a scope of work, price that scope, and prepare the
   contract to execute the scope. Alpha contracting negotiations are used in sole-
   source negotiated situations.

   Apache Helicopter Prime Vendor Support Program. The Prime Vendor
   Support (PVS) program used DoD logistics reengineering concepts designed to
   use commercial sources to provide logistics support and assign oversight of life-
   cycle support to the program manager. The PVS program was intended to
   provide streamlined and complete system management and logistics support for
   the Apache helicopter. The Apache helicopter major equipment manufacturers
   teamed together to propose a full range of logistics support along with
   continuous product improvement and modernization as the PVS program.

   Best Case Government Cost. The Best Case Government Cost, or the
   in-house cost estimate, is the Government’s proposal for commercial activity
   functions subject to in-house or contractor performance. In this evaluation
   report, we refer to the Best Case Government Cost as the Government proposal.

   Performance Work Statement. The performance work statement (PWS)
   provides the technical, functional, and performance characteristics of the work
   to be performed. The PWS identifies essential functions to be performed,
   determines performance factors such as the locations of work, units of work,
   quantity of work units, and quality and timeliness of work units (performance
   standards, measures, and time frames). For Circular A-76 cost comparisons,
   the PWS is the basis for determining whether performing a function is cheaper
   in-house or by contract.

   Prime Vendor Support Program Baseline. The Prime Vendor Support
   program baseline (PVS baseline) represented the total cost that the Government
   budgeted to procure, operate, and maintain logistics support for the Army’s
   Apache helicopters. The PVS baseline consolidated budgeted costs in the
   mission areas of end-item management, unit operations, and direct and indirect
   system support. The PVS baseline was intended as a monetary control that
   would not be exceeded in implementing the PVS program.




                                      29
Appendix D. DoD Logistics Reengineering
            Efforts
   In recent years, DoD concluded that its logistics support system needed to be
   more efficient and effective in meeting warfighter needs. Additionally,
   section 912(c) of the National Defense Authorization Act for FY 1998 directs
   that the Secretary of Defense submit to Congress an implementation plan that
   streamlines the DoD acquisition organizations, workforce, and infrastructure.
   In the report, “U.S. Department of Defense, Secretary of Defense, Actions to
   Accelerate the Movement to the New Workforce Vision,” April 1, 1998, the
   Secretary of Defense committed to conduct several studies with the view toward
   adopting best commercial practices in reengineering DoD product support
   processes. One of the studies directed establishment of a Program Manager
   Oversight of Life-Cycle Support.

   Program Manager Oversight of Life-Cycle Support. The Program Manager
   Oversight of Life-Cycle Support initiative was a reengineering product support
   process designed to improve the logistics support systems in DoD. In the
   report, “U.S. Department of Defense, Secretary of Defense, Actions to
   Accelerate the Movement to the New Workforce Vision,” the Secretary of
   Defense stated that:

          In today’s environment, most program executive officers (PEOs) and
          program managers (PMs) have direct responsibility and control of
          funding for development and fielding weapons systems and
          equipment. Once the system or equipment is fielded, the PM retains
          overall responsibility for the system or equipment, but loses control of
          significant portions of the funding required for support.

          This practice results in much higher life-cycle costs than should be the
          case because the PEO and PM have no incentive to take action,
          during development or modification of the systems, to design into the
          equipment features that will improve the reliability, availability and
          maintainability of the fielded system; and it divides the responsibility
          important to incentivize proper tradeoffs during development,
          acquisition and modification and to control total ownership costs.
          Funding control improves program stability and allows PMs to
          optimize the effectiveness of and support for their weapon system.

   Selection of Pilot Programs. Section 816(a) of the National Defense
   Authorization Act for FY 1999 states that:

          The Secretary of Defense, acting through the Secretaries of the
          Military Departments, shall designate 10 acquisition programs of the
          Military Departments as pilot programs on program manager
          responsibility for product support.




                                            30
In response to Section 816(a), the Under Secretary of Defense (Acquisition and
Technology) (now Under Secretary of Defense for Acquisition, Technology,
and Logistics) selected 10 of 30 pilot programs to report to Congress. The
Apache helicopter was one of the 10 acquisition pilot programs and included
implementation of the PVS program.




                                  31
Appendix E. Chronology of Significant Events
April 1997       Army received unsolicited proposal from Team Apache Systems
                 that would provide PVS for the Apache helicopter

May 1997         PEO designated as lead agency with support from AMC and
                 AMCOM

September 1997   PEO tasked AMC to prepare estimate of Government most
                 efficient organization

October 1997     Acting Assistant Secretary of the Army (Research, Development
                 and Acquisition) signed Justification and Approval for Other Than
                 Full and Open Competition
                 Army notified Congress, in compliance with 10 U.S.C. 2461, of
                 its intent to analyze the Apache helicopter PVS program for
                 possible change to performance by the private sector

                 AMC designated AMCOM as logistical integrator for Apache PVS
                 and Government proposal

November 1997    PEO provided Government PVS baseline to AMCOM to prepare
                 the Government proposal. AMCOM began preparing the
                 Government proposal

January 1998     Preparation of PWS by Logistics WIPT with contractor
through          participation during the Alpha negotiation and coordination
June 1998        of PWS with AMCOM and other Army organizations

March 1998       Government proposal submitted by AMCOM to AMCOM legal
                 counsel (additionally, six updates were submitted between
                 April 1998 and July 1998)

April 1998       Final PVS program cost baseline completed by PEO and reviewed
                 by CEAC

                 Contracting Officer received initial Team Apache Systems’
                 proposal (contractor proposal)

June 1998        Government proposal submitted by AMCOM legal counsel to PEO
                 representative

                 CEAC completed review of the Government proposal

                 Alpha negotiation of the PWS and contractor proposal concluded
                 and price agreement reached

                 Cost WIPT received contractor proposal



                                      32
July 1998        Last update to the Government proposal by AMCOM (based on
                 data provided by AMCOM)

August 1998      AAA and CEAC evaluated the proposed PVS contract controls
through          and later the Circular A-76 waiver request package and provided
August 2000      briefings to the Under Secretary of the Army

September 1998   Cost WIPT equalized contractor proposal and Government
                 proposal

October 1998     Circular A-76 waiver request submitted to the Assistant Secretary
                 of the Army (Installation, Logistics, and Environment) [now
                 Assistant Secretary of the Army (Installations and Environment)]
                 with a different set of equalization adjustments

December 1998    Assistant Secretary of the Army (Research, Development, and
                 Acquisition) (now Assistant Secretary of the Army [Acquisition,
                 Logistics, and Technology]) tasked AAA to review the waiver
                 request to determine if it was complete and reasonable

February 1999    Under Secretary of Defense (Acquisition and Technology) (now
                 Under Secretary of Defense for Acquisition, Technology, and
                 Logistics) selected Apache helicopter as one of 10 pilot acquisition
                 programs to report to Congress as required by section 816(a) of
                 the National Defense Authorization Act for FY 1999

October 1999     Army informed Team Apache Systems that PVS could not be
                 executed

November 1999    Under Secretary of the Army tasked AMCOM to review the
                 inventory decapitalization issue as part of the PVS Round II

March 2000       Army Office of the General Counsel stated that two alternatives
                 AMCOM and the Assistant Secretary of the Army (Financial
                 Management and Comptroller) developed during PVS Round II
                 that address the inventory issue had serious deficiencies.
                 Deficiencies included issues such as: accepting replacement of
                 parts in-kind was inconsistent with the statutory requirement to
                 reimburse the Army Working Capital Fund with cash or a charge
                 to applicable appropriations, use of Operations and Maintenance
                 funds for product improvement for Apache Model D was
                 inappropriate, and failure to retain all of the incentive benefits of
                 the fixed price per flying hour because inventory reduction would
                 accrue to the Army Working Capital Fund and not the contractor.

April 2000       Commanding General, AMCOM concluded that it was doubtful
                 that the Apache helicopter PVS program could proceed (after
                 decision by the Army Office of the General Counsel regarding the
                 inventory alternatives in the PVS Round II) and directed that
                 pertinent files be archived and personnel involved return to their
                 normal duties



                                       33
August 2000     Under Secretary of Defense (Acquisition and Technology) (now
                Under Secretary of Defense for Acquisition, Technology, and
                Logistics) sent memorandum to the Chief of Staff of the Army
                recommending implementation of the contractor proposal for the
                PVS program

November 2000   Under Secretary of the Army informed the Under Secretary of
                Defense for Acquisition, Technology, and Logistics that the
                contractor proposal for the PVS program did not meet Army needs




                                    34
Appendix F. Army Organization Structure in the
            PVS Program Evaluation Process

 (Main organizations involved in the review through October 1998, the date of the
                    submission of the Circular A-76 waiver14)

                                                      General Officer
                                                    Steering Committee




                                                                                                 AMC
              Assistant Secretary of the
                  Army (Financial
                  Management and                            PEO
                                                                                               AMCOM
                    Comptroller)


                                                                                               Government
                                                            OIPT                              proposal team
                       CEAC




                                                                                Engineering      Logistics
           Alpha Contracting IPT                       Business IPT                IPT             IPT




         Logistics         Pricing                                    Technical
                                                Cost WIPT          Evaluation WIPT
          WIPT             WIPT



                     Indicates direct tasking

                     Indicates coordination and/or requesting data




14
     See Appendix G for Army Participants and Roles in the PVS Program Evaluation Process.



                                                            35
     (Main organizations involved in the review after October 1998, the date of the
                      submission of the Circular A-76 waiver15)



Army Audit Agency
Army Aviation and Missile Command
Army Cost and Economic Analysis Center
Army Materiel Command
Army Program Executive Office, Aviation
Office of the Army General Counsel
Office of the Assistant Secretary of the Army (Financial Management and Comptroller)
Under Secretary of the Army




15
  Other organizations in the first page of Appendix F did not officially dissolve after the waiver
 submission.



                                                    36
Appendix G. Army Participants and Roles in the
            PVS Program Evaluation Process                                                      16




        General Officer Steering Committee. The General Officer Steering
        Committee was co-chaired by Army Assistant Vice Chief of Staff; Deputy
        Commanding General, AMC; and Military Deputy to the Assistant Secretary of
        the Army (Research, Development, and Acquisition). Membership included
        several other Army General Officers and senior executives. The General
        Officer Steering Committee had oversight of the IPT process and designated the
        PEO as the lead agency for the PVS program.

        PEO. The PEO (including Project Manager and Deputy Project Manager for
        the Apache), was the lead agency in PVS program evaluation with support and
        direct tasking authority within AMC. The PEO provided periodic briefings to
        the General Officer Steering Committee and other interested Army organizations
        and individuals. The PEO signed the Circular A-76 waiver request.

        AMCOM. AMCOM was an active participant in the entire PVS program
        evaluation and provided members to IPTs and WIPTs. AMCOM also
        participated in General Officer Steering Committee briefings.

        Government Proposal Team. The Government Proposal Team was chaired by
        an employee of AMC and later an AMCOM employee. Members included
        AMCOM employees and various AMC major subordinate commands. The
        Government Proposal Team prepared the Government proposal primarily based
        on the PVS baseline adjusted for the Army’s planned improvements.

        OIPT. The OIPT was chaired by Deputy Project Manager for the Apache.
        Membership included the Alpha Contracting, Business, Engineering, and
        Logistics IPTs. The OIPT met periodically to review PVS program issues and
        actions. The OIPT also assigned responsibilities for issues and actions, defined
        goals, and set milestones.
        Alpha Contracting IPT. The Alpha Contracting IPT was chaired by an
        AMCOM procurement contracting officer. Membership included the Pricing
        and Logistics WIPTs. The Alpha Contracting IPT had oversight of the Alpha
        negotiations with the contractor that were conducted by the Logistics and
        Pricing WIPTs, and preparing the Circular-76 waiver request.

        Logistics WIPT. The Logistics WIPT was a part of the Alpha Contracting IPT.
        The Logistics WIPT participated in conducting Alpha negotiations with the
        contractor to prepare the PWS and the Corpus Christi Army Depot workload
        applicable to the PVS program scope.




16
  Includes only the main scope of work for the main participants. Documents that identify all
 participants and their involvement were not available.



                                                  37
Pricing WIPT. The Pricing WIPT was a part of the Alpha Contracting IPT.
The Pricing WIPT conducted price negotiations with the contractor, and
coordinated the negotiated workload hours and labor rate for the Corpus Christi
Army Depot workload applicable to the PVS program scope.

Business IPT. The Business IPT was chaired by an employee of PEO.
Membership included the Cost and Technical Evaluation WIPTs and various
Army organizations. The Business IPT had oversight of the Cost WIPT and the
Technical Evaluation WIPT. The Business IPT prepared the evaluation of
Government and contractor costs, assessed funding limitations and financial
impacts, prepared the Justification and Approval for Other Than Full and Open
Competition, and prepared Circular A-76 waiver requirements.

Cost WIPT. The Cost WIPT was a part of the Business IPT. The Cost WIPT
prepared PVS baseline, reviewed cost and performance of the contractor
proposal and Government proposal, and performed the initial equalization of
both proposals.

Technical Evaluation WIPT. The Technical Evaluation WIPT reviewed the
contractor proposal and Government proposal for technical performance and
issued two technical evaluation reports.

Engineering IPT. The Engineering IPT was chaired by an employee of
AMCOM. Membership included personnel from AMCOM and PEO. The
Engineering IPT evaluated the technical aspect of the PVS program, including
airworthiness, configuration management systems, and flight safety.

Logistics IPT. The Logistics IPT was chaired by an employee of PEO and later
AMCOM employees. The Logistics IPT assessed the doctrine impacts, logistics
policy, and laws relating to and including depot maintenance and core logistics
functions. The Logistics IPT also assessed use of contractor personnel on the
battlefield, foreign military sales, management information systems, ownership
of inventory including war reserves, ownership of test equipment, potential
wartime conditions, and technical publications.

Under Secretary of the Army. The Under Secretary of the Army was the final
Army decision authority for the PVS program. The Under Secretary of the
Army was briefed on the results of AAA reviews of the PVS program including
a review of the Circular A-76 waiver request.

AAA. The AAA, at the request of Under Secretary of the Army and other
Assistant Secretaries, reviewed and equalized the contractor proposal and
Government proposal after the Circular A-76 waiver request was submitted.
Along with briefing the Under Secretary of the Army, AAA issued five
consulting reports.

CEAC. Various CEAC employees supported the Cost WIPT. CEAC compiled
and validated the PVS baseline, reviewed the Government proposal, participated
in preparing the evaluation of Government and contractor costs and necessary
adjustments to equalize the two proposals, and supported AAA in reviewing the
waiver request package.



                                   38
Army Office of General Counsel. The Army Office of General Counsel
provided guidance on processing Circular A-76 waivers, evaluated proposed
solutions to the Army Working Capital Fund issue, and attended several
meetings throughout the Circular A-76 waiver process.

Office of the Assistant Secretary of the Army (Financial Management and
Comptroller). The Office of the Assistant Secretary of the Army (Financial
Management and Comptroller) provided members to Business and Logistics
IPTs and determined financial management impacts as well as recommended
solutions. The Office of the Assistant Secretary also had special involvement in
Army Working Capital Fund issues. They also tasked AAA to perform reviews
of the Apache PVS program to ascertain the controls pertaining to Government
property with contractors, the effect of the PVS model contract on the Army
Working Capital Fund, and the cash flow projections.




                                   39
Appendix H. Compendium of Laws,
            Regulations, and Instructions
   Section 2462, title 10, United States Code. Section 2462, title 10, United
   States Code, (10 U.S.C. 2462), states that:

          (a) In General. Except as otherwise provided by law, the Secretary
              of Defense shall procure each supply or service necessary for or
              beneficial to the accomplishment of the authorized functions of
              the Department of Defense (other than functions which the
              Secretary of Defense determines must be performed by military
              or Government personnel) from a source in the private sector if
              such a source can provide such supply or service to the
              Department at a cost that is lower (after including any cost
              differential required by law, Executive order, or regulation) than
              the cost at which the Department can provide the same supply or
              service.

          (b) Realistic and Fair Cost Comparisons. For the purpose of
              determining whether to contract with a source in the private
              sector for the performance of a Department of Defense function
              on the basis of a comparison of the costs of procuring supplies or
              services from such a source with the costs of providing the same
              supplies or services by the Department of Defense, the Secretary
              of Defense shall ensure that all costs considered (including the
              costs of quality assurance, technical monitoring of the
              performance of such function, liability insurance, employee
              retirement and disability benefits, and all other overhead costs)
              are realistic and fair.

   Office of Management and Budget Circular No. A-76. OMB Circular
   No. A-76, “Revised Supplemental Handbook, Performance of Commercial
   Activities,” March 1996 (revised through June 1999), establishes Federal policy
   for Government performance of commercial activities and sets forth procedures
   for studying those activities for potential contracting. Circular A-76 and its
   Supplemental Handbook provide guidance to Federal agencies on procedures for
   determining whether the work should be performed in-house or by another
   organization, including the private sector. The principal requirements of the
   Circular A-76 process for competitive cost comparisons include:

          •   developing a PWS,

          •   determining the Government’s most efficient organization,

          •   developing an in-house Government cost estimate for the most
              efficient organization,




                                           40
       •   issuing a request for proposals, evaluating proposals, and comparing
           the in-house estimate against the proposed contractor price to select
           the winner, and

       •   considering any appeals.

        The Circular A-76 Supplemental Handbook provides that agencies may
waive cost comparisons and direct conversion to or from in-house performance
when the conversion would result in a significant financial or service quality
improvement, or the waiver will establish why the in-house proposal has no
reasonable expectation of winning a competition under the cost comparison
procedures of the Handbook. The Circular A-76 Supplemental Handbook also
states that following a tentative waiver or Circular A-76 cost comparison
decision, the Circular A-76 administrative appeals process is invoked. In
addition, the Circular A-76 Supplemental Handbook encourages agencies to seek
training on the policies and procedures of Circular A-76 and its Supplemental
Handbook, and to ensure that the skills necessary for preparing the PWS,
in-house management plan, and the cost estimate are available. Joint training
for employees and their representatives is encouraged.

DoD Strategic and Competitive Sourcing Programs Interim Guidance. DoD
Strategic and Competitive Sourcing Programs Interim Guidance dated April 3,
2000, includes interim guidance pending the update of DoD Directive 4100.15,
“Commercial Activities Program,” March 1989, and DoD Instruction 4100.33,
“Commercial Activities Program Procedures,” last updated in October 1995.
The interim guidance requires:

       •   When performing a Circular A-76 cost comparison, DoD
           Components shall follow the procurement process required by the
           Federal Acquisition Regulation and as supplemented by the Defense
           Federal Acquisition Regulation Supplement and Component
           supplements.

       •   DoD Components and commanders/directors shall remain impartial
           during the cost comparison process and never intend or promote a
           specific outcome (in-house or contract) for the Circular A-76 cost
           comparison process.

       •   Where private sector consultants assist DoD Components in
           preparing both a PWS and management plan, sufficient “firewalls”
           within the private sector consultant should be in place to prevent the
           same individual from both developing the PWS and assisting in
           preparation of the most efficient organization.

       •   “Directly affected” civilian employees and their representatives, as
           well as individuals who participated in developing the Government’s
           Management Plan (for example, developing the most efficient
           organization or in-house cost estimate) shall be excluded from
           participating as members of the Source Selection Evaluation Board or
           as evaluators in the evaluation of competing contract offers unless an
           exception is authorized by the head of the contracting activity.
           Exceptions are authorized only in compelling circumstances. The


                                    41
           interim guidance defines directly affected civilian employees as a
           civilian employee (for example, DoD civilian, non-appropriated fund
           employee, or contractor) whose work is being competed. The
           exclusion is the result of a concern that a civilian employee’s
           continued Federal employment may be affected by the outcome of the
           Circular A-76 cost comparison process.

Federal Acquisition Regulation. The Federal Acquisition Regulation addresses
issues related to the conflicts of interest:

       •   The Federal Acquisition Regulation Part 3, “Improper Business
           Practices and Personal Conflicts of Interest,” prescribes the policies
           and procedures for avoiding improper business practices and personal
           conflicts of interest and for dealing with their apparent or actual
           occurrence.

       •   Federal Acquisition Regulation Subpart 3.101, “Standards of
           Conduct,” states, “Transactions relating to the expenditure of public
           funds require the highest degree of public trust and an impeccable
           standard of conduct. The general rule is to avoid strictly any conflict
           of interest or even the appearance of a conflict of interest in
           Government-contractor relationships.”

DoD Instruction 5010.40. DoD Instruction 5010.40, “Management Control
Program Procedures,” August 28, 1996, includes by reference OMB
Circular No. A-123 (Circular A-123), “Management Accountability and
Control,” June 21, 1995. Circular A-123 requires that agency managers shall
incorporate basic management controls in the strategies, plans, guidance, and
procedures that govern their programs and operations. Circular A-123 also
requires that controls shall be consistent with standards, which are drawn in
large part from the “Standards for Internal Control in the Federal Government,”
issued by the General Accounting Office, and that those standards include
compliance with laws and regulations, separation of duties, and documentation.

Army Regulation 5-20. Army Regulation 5-20, “Commercial Activities
Program,” October 1, 1997, implements the requirements of Circular A-76.
Army Regulation 5-20 provides policy for determining whether recurring
commercial activities should be operated in-house or by outside entities. The
regulation requires that:

       •   Commanders of major commands provide written guidance and
           on-site assistance to installation cost competition study efforts and
           provide training on the policies and procedures of the commercial
           activities program to ensure personnel have the necessary skills to
           meet the requirements of the regulation.

       •   Commanders of installations ensure that personnel are trained in
           policies and procedures of the commercial activities program to
           obtain the skills necessary to meet the requirements of the regulation.




                                    42
       •   When a waiver to allow conversion to or from in-house performance:

              The waiver request must contain documentation that
              demonstrates that the various legal restrictions on converting
              DoD functions to contract (such as Section 8015 of the
              FY 97 DoD Appropriations Act and 10 U.S.C. 2461, 2462,
              and 2465) do not apply.           (Approval of an “OMB
              Circular A-76 waiver” does not constitute a waiver of any
              law.)

       •   The in-house cost estimate shows the cost to the Government for
           performing the work in the PWS with the proposed in-house
           organization and that the proposed in-house organization is the most
           efficient organization.

       •   AAA, as the independent reviewer, review in-house cost estimates
           for activities with more than 65 civilians.

Army Regulation 11-18. Army Regulation 11-18, “The Cost and Economic
Analysis Program,” January 31, 1995, establishes responsibilities and policy for
the Army Cost and Economic Analysis Program. The regulation requires that:

       •   The Army Comptroller provide policy and oversight for activities of
           the CEAC.

       •   The Headquarters, Department of the Army principal officials will
           [among other functions] review cost and economic analyses or other
           cost comparisons to ensure completeness, suitability, and balance
           against Army program requirements and objectives.

       •   CEAC implement the Army Cost and Economic Analysis Program
           and review cost and economic analyses or other cost comparisons.
           The regulation also requires that the CEAC administer the Visibility
           and Management of Operating and Support Cost program process.

       •   The Army validate cost and economic analyses and other cost
           comparisons to ensure their currency, reasonableness, and
           completeness for use in decisionmaking.

Army Pamphlet 5-20. Army Pamphlet 5-20, “Commercial Activities Study
Guide,” July 31, 1998, requires that AAA, as the independent reviewer of the
Best Case Government Cost, certify the accuracy and reasonableness of the Best
Case Government Cost and that the most efficient organization is a reasonable
estimate of resources needed to perform the same quantity and quality of work
required of the contractor in the PWS. Army Pamphlet 5-20 also requires that
the independent review be completed before the deadline specified in the
solicitation for receipt of contractor bids or initial proposal.




                                       43
Army Cost Analysis Manual. The “Army Cost Analysis Manual,” July 1997,
includes guidance for conducting cost analyses. The manual requires that:

      •   An independent organization or agency review and validate each cost
          estimate.

      •   The review include a thorough analysis of problem definition,
          alternatives, assumptions, costs estimated, benefit analysis (as
          necessary), risks, sensitivity analysis, conclusions, and
          recommendations.

      •   The documentation process provides readable, auditable, and useful
          reports.

Army Economic Analysis Manual. The “Army Economic Analysis Manual,”
July 1995, includes guidance for conducting economic analyses. The manual
requires that:

      •   An economic analysis be a systematic approach to identify, analyze,
          and compare costs or benefits of alternative courses of action that
          will achieve a given set of objectives, and that the approach is taken
          to determine the most efficient and effective manner to employ
          resources.

      •   All new or ongoing programs or activities are forwarded to higher
          headquarters for approval when a choice or trade-off between two or
          more alternatives is present.

      •   Economic analyses of high dollar value or high visibility (for
          example, projects that require approval by Headquarters, Department
          of the Army) have a thorough validation consisting of a
          comprehensive review of all costs and benefits, with a formally
          documented report at the conclusion of the review.

      •   Documentation of data sources and maintenance of an audit trail is
          because the acceptance of an economic analysis depends on the
          credibility of the cost estimates.




                                   44
Appendix I. Army Audit Agency Role in the
            Apache Prime Vendor Support
            Review
   The Defense Hotline allegation addressed the role of AAA in the Apache PVS
   program review. In response to taskings from the Under Secretary of the
   Army, Assistant Secretary of the Army (Acquisition, Logistics, and
   Technology) and the Assistant Secretary of the Army (Financial Management
   and Comptroller), AAA prepared five consulting reports. In addition to the
   consulting reports, AAA provided multiple briefings to the Under Secretary of
   the Army. The standards for conducting consulting assignments are not as
   stringent as the standards for performing audits and evaluations, especially when
   time limitations in gathering or presenting data exist. In consulting
   engagements, the client determines the nature and scope of the work to be
   performed. Government Auditing Standard 3.17 establishes external
   impairments such as external interference with the selection or application of
   audit procedures as being an impairment to auditor independence. As such, in
   consulting engagements where the client and not the auditor determines the
   nature and scope of the work to be performed the Government Auditing
   Standards independence requirements are not met.

   Background. In a Circular A-76 proposal, the Government and the contractor
   prepare proposals based on a common PWS. In developing the Circular A-76
   waiver package for the Apache support contract, the Technical Evaluation WIPT
   examined the support for the Government proposal (also called the Best Case
   Government Cost) and recommended adjustments to various cost elements in a
   technical evaluation report. The Army PEO, in preparing the Circular A-76
   waiver package, made additional adjustments to make the Government proposal
   comparable with the contractor proposal. As discussed in finding A and
   finding B, additional guidance is needed for performing Circular A-76 waiver
   evaluations of Government and contractor costs.

   Allegations. In general, the writer of the Defense Hotline allegation disagreed
   with AAA concurrence of the cost savings initiatives the Government proposal
   used to adjust the baseline. The specific allegations were:

          •   Modernization Through Spares. The allegation was that AAA
              inappropriately agreed with the proposed efficiency that reduced the
              cost of the Government proposal by $14.5 million to recognize
              savings in spares modernization.

          •   Life-Cycle Cost Reduction. The allegation was that AAA
              inappropriately reduced the cost of the Government proposal by
              $86.6 million to recognize life-cycle cost reduction savings.

          •   Pipeline Inventory. The allegation was that AAA improperly
              increased to $180 million the $110 million for pipeline inventory
              costs included by the Circular A-76 waiver analysis.



                                      45
           •   Contractor Field Support Representatives and Engineering Support.
               The allegation was that AAA inappropriately reduced the cost of the
               Government proposal by $257.4 million (AAA later added an
               adjustment of $51 million, making the reduction $206.4 million).


Modernization Through Spares
    The allegation was that AAA inappropriately agreed with the proposed
    efficiency that reduced the cost of the Government proposal by $14.5 million to
    recognize savings in spares modernization. As AAA stated in Consulting
    Report No. 99-733, “Review of the Best Case Government Cost to Support the
    Apache,” March 16, 1999, “this efficiency assumes that over time changes in
    technology will result in more efficient and cheaper parts. Although Aviation
    and Missile Command [AMCOM] couldn’t support all the projected savings, we
    believe the concept has merit and the savings of $14.5 million for the first
    5 years are reasonable.”

    AAA recognized that the projected savings were not fully supported but believed
    that the concept had merit. CEAC also reviewed the savings and made an
    80-percent reduction in the computed savings. Although the AAA report states
    that the concept had merit, the working papers disclosed some concerns about
    the concept of modernization through spares, including no track record for that
    type of proposal and no study to support the percentage reduction in the costs of
    spares. Given that the amount of savings represented a small percent (about
    2 percent) of total spares purchased and reasonable chance for success, AAA
    decided to accept the proposed savings.


Life-Cycle Cost Reduction
    The allegation was that AAA inappropriately reduced the cost of the
    Government proposal by $86.6 million to recognize savings from life-cycle cost
    reduction. Life-cycle cost reduction savings are anticipated from projects that
    could reduce maintenance and repair costs for the Apache. Those projects often
    require up-front costs to develop and test new parts, processes, or procedures.
    The projects must recoup the costs before savings are recognized or achieved.
    In Consulting Report No. 99-729, “Review of the A-76 Waiver Package for
    Apache Prime Vendor Support,” February 22, 1999, AAA concludes that the
    life-cycle cost reduction projects would not achieve the projected savings during
    the FY 1999 through FY 2003 time frame based on the FY 1998 technical
    evaluation report, which states that most of the projects did not contain rationale
    on how savings would be achieved. In the subsequent Consulting Report
    No. 99-733, AAA states that AMCOM provided better definitions of the
    projects and clarified that many of the projects were based on processes and
    procedures already used on other helicopters. Further, a review of the savings
    by a command engineer who had been involved in the initial technical review
    thought the savings were reasonable. Consulting Report No. 99-733 states,




                                        46
     “Because of this current information, we will accept most of the savings. But,
     we caution that previous reviews of similar cost reduction proposals have shown
     this type of savings are often optimistic and occur later than planned.”

     AAA working papers disclose that AAA changed its position after reviewing
     seven projects and holding discussions with a member of the original Technical
     Evaluation WIPT. The engineer on the Technical Evaluation WIPT disclosed
     that subsequent to the technical evaluation report, the engineer reviewed the
     projects and projection of savings and stated that the support was “certainly
     better with more realistic savings.”

     Because savings had been achieved in other helicopter programs and some
     savings had already been achieved on the Apache through value engineering
     projects, AAA concluded that AMCOM estimates of life-cycle cost reduction
     savings were conservative. An AAA auditor noted that further documentation
     and review to ensure that the savings that would occur would be needed.
     Miscommunication with the engineer on the Technical Evaluation WIPT was
     later brought to the attention of AAA in an e-mail sent by the Procurement
     Contracting Officer to an AAA official.

     In a July 13, 1999, briefing to the Under Secretary of the Army, the issue was
     discussed, and AAA was tasked to have the Technical Evaluation WIPT review
     proposed savings from life-cycle cost reduction projects to determine the
     likelihood of achieving the savings. The second technical evaluation report
     confirmed that savings would occur, but not during the stated time frame.
     Therefore, AAA revised its position again and, as presented in a July 21, 1999,
     briefing to the Under Secretary of the Army, deleted $84 million of the
     $86.6 million adjustment previously reduced from the Government proposal in
     AAA Consulting Report No. 99-733.


Pipeline Inventory
     The allegation was that AAA improperly increased to $180 million the
     $110 million for pipeline inventory costs included by the Circular A-76 waiver
     analysis. In Consulting Report No. 99-762, “Review of the Effect of Apache
     Prime Vendor Support Contract on the Army Working Capital Fund,” June 25,
     1999, AAA stated:
               During our review, the value of the pipeline was in the range of $160
               to $200 million. For decision-making purposes, we suggest using the
               midpoint of about $180 million. The pipeline represents obligations
               the working capital fund has for inventory on order. This amount
               changes from day to day as the fund makes disbursements and new
               purchases . . . . The range results from some items being questionable
               until further review.

     AAA provided detailed information in the consulting report addressing the
     source and method they used to attempt to derive a validated number and
     indicated that more work was needed.



                                            47
    AAA working papers disclose that AAA performed as a facilitator, working
    with AMCOM and the Apache Project Office, in an attempt to reconcile their
    differences. First, AAA had to obtain agreement on the definition used for the
    pipeline inventory. Then an attempt was made to reconcile two different
    sources of information. AAA identified inaccuracies in both sources.

    Consulting Report 99-762 attributes the $40 million range to questionable items
    and states that AMCOM Integrated Materiel Management Center personnel need
    from 60 to 180 days to determine the validity of those items. The report states,
    “Until a complete scrub [of contract listings] is done, using the midpoint of the
    range—$180 million—is a reasonable estimate for the decision-making process.”


Contractor Field Support Representatives and Engineering
  Support
    The allegation was that AAA inappropriately reduced the cost of the
    Government proposal by $257.4 million (later changed to $206.4 million). As
    AAA stated in a March 19, 1999, briefing to the Under Secretary of the Army,
    the Contractor Field Support Representatives and Engineering Support were not
    needed to meet the Apache requirements, thus $257.4 million was deleted from
    the Government proposal adjustment. AAA later changed its position and added
    a $51-million adjustment.

    The AAA initial position was that the requirement was to support a given
    number of flying hours. We were informed by a CEAC employee that the
    “how to” provide or support the flying hours was left up to the Government and
    the contractor to decide; therefore, the $257.4 million reduction. In Consulting
    Report No. 99-729, AAA states that either the proponent for the flying hour
    program or the Circular A-76 approval authority is in the best position to decide
    whether the adjustments are needed to satisfy the flying hour requirement. The
    Under Secretary of the Army directed the Deputy Chief of Staff (Operations and
    Plans) to describe the desired operational end state at 5 years for the Apache in
    terms of reliability and readiness. Based on that end state, AAA modified its
    position in a July 13, 1999, briefing and added $51 million for 60 support
    representatives to the Government proposal.

    AAA working papers and subsequent information provided disclose that AAA
    reduced the $257.4-million adjustment because that adjustment was inaccurate,
    unsupported, and unreasonable. Specifically, both the contractor proposal and
    the Government proposal included two Contractor Field Support Representatives
    for each Apache unit designed to increase aircraft availability. Neither
    AMCOM nor the Apache Project Office could support their amounts. The
    $257.4 million included post-production systems support, technical personnel,
    and miscellaneous costs; AAA could not isolate the Contractor Field Support
    Representatives costs. AMCOM used a very low figure that was not supported.
    AAA made calculations based on actual costs from Boeing, Lockheed Martin,
    and General Electric for the same type of Contractor Field Support
    Representatives services and arrived at $51 million ($170,000 a year multiplied



                                       48
    by 60 teams for 5 years). AAA deleted the $257.4-million adjustment and
    included an adjustment of $51 million for Contractor Field Support
    Representatives costs.


Conclusion
    The review of the Circular A-76 waiver for the Apache PVS proposals was an
    iterative process. The lack of statutory or regulatory guidance for preparing a
    Circular A-76 waiver and for assessing the appropriateness of any adjustments
    caused multiple iterations. Further, as issues were raised in the management
    review process, additional work was performed by AAA and the Army and
    adjustments made. The AAA in most of their consulting reports adequately
    disclosed limitations on the data presented. For example, in Consulting
    Report 99-172, AAA indicated that time constraints precluded fully validating
    the pipeline inventory costs. We believe that some instances existed where
    AAA should have made additional disclosures so that decision makers would be
    aware of the assumptions and data limitations which were relied upon in making
    conclusions and recommendations. As shown, the AAA position on specific
    issues changed several times, which would add confusion to the decision making
    process. At other times, the support was limited and there were concerns
    expressed in the AAA working papers that should have been further disclosed to
    the decision makers. Nevertheless, the oversight process worked because as
    issues were raised, additional efforts were made to resolve them. Again, as
    stated in finding B, more guidance was needed regarding Circular A-76 cost
    comparison waivers to include a requirement for a common baseline, costs to be
    included in the cost comparison, a basis for determining whether costs are
    realistic and fair, and a requirement for an independent review of the
    Government cost and cost comparison.




                                      49
Appendix J. Defense Hotline Complainant
            Comments on Draft Evaluation
            Report and Evaluation Response
   The Defense Hotline complainant provided a series of comments on the draft
   evaluation report. The following summarizes those comments and our response
   to the comments.

   Issue A: Army Working Capital Fund
   Comment 1. The evaluation avoided the Army Working Capital Fund.
   Evaluation Response. We examined a portion of the Army Working Capital
   Fund, specifically relating to the surcharge and pipeline valuation, as presented
   in the allegation and the Assistant Secretary of the Army (Financial Management
   and Comptroller) (Army Comptroller) review of alternatives to decapitalization.
   We evaluated whether the Army consistently favored sale of inventory in the
   Army Working Capital Fund without consideration of alternatives. Based on a
   review of documents collected during the evaluation, we concluded that the
   Army Comptroller was not convinced that the Apache PVS was a good business
   decision for the Army. In addition, the Army Comptroller wanted additional
   research done to ensure Army financial policies were considered and requested
   that the AAA perform consulting work on the effect the Apache PVS contract
   would have on the Army Working Capital Fund. On October 19, 1999, the
   Army Comptroller, the Under Secretary of the Army, Assistant Secretary of the
   Army (Acquisition Logistics and Technology) representative, and an Army
   Office of General Counsel representative met with the Principal Deputy Under
   Secretary of Defense (Acquisition and Technology) to obtain the Office of the
   Secretary of Defense position with respect to decapitalization from the Army
   Working Capital Fund and nonreimbursable transfer of the Apache parts
   inventory. The Principle Deputy would not permit the decapitalization from the
   Army Working Capital Fund but offered alternative approaches for the Army to
   consider as a way to move forward. We also reported the efforts the Army took
   to unsuccessfully decapitalize the Apache inventory in the Army Working
   Capital Fund, and alternatives considered to resolve the inventory issues.

   Comment 2. The draft report statement that legal issues pertaining to the Army
   Working Capital Fund resulted in the cancellation of PVS Apache study is not
   accurate.

   Evaluation Response. We agree that legal issues were not the only cause for
   the cancellation of the Apache PVS study. As discussed previously, substantive
   policy objections existed regarding providing the contractor the Apache
   inventory in the working capital fund. In addition to the October 19, 1999
   memorandum previously discussed, the Army Office of General Counsel
   reviewed two proposals relating to the Apache inventory proposal and on
   March 23, 2000, wrote a memorandum to the Army Comptroller and the
   Assistant Secretary of the Army (Acquisition, Logistics, and Technology) that


                                      50
the inventory proposal had serious deficiencies. The Army Office of General
Counsel concluded that in the absence of other [inventory] proposals, the Army
should obtain statutory authority to decapitalize the Apache inventory as
envisioned before the Army could provide the inventory to the PVS contractor
as Government-furnished property. Also, on November 28, 2000, the Under
Secretary of the Army stated in a memorandum to the Under Secretary of
Defense (Acquisition, Technology, and Logistics) additional reasons for not
pursuing the PVS, to include 3-year-old cost data and the Army legal counsel
belief that the Army may need to undertake a Circular A-76 review.

Comment 3. The Inspector General of the Department of Defense did not
investigate any allegation regarding decapitalization. The complainant believes
that the PVS concept met the statutory requirements and that decapitalization
should have been permitted.

Evaluation Response. We did not perform a detailed review of this issue
because it was a management decision made in October 1999. See Evaluation
Response to complainant comment 1. Further the Army Office of General
Counsel stated that statutory authority would be needed to decapitalize the
inventory as envisioned.

Two alternatives were presented to the Army Office of General Counsel. On
March 23, 2000, the Office of General Counsel determined that both had serious
deficiencies. The replacement-in-kind option was inconsistent with statutory
requirements for working capital funds. The Office of General Counsel had no
legal objection to a purchase alternative that would permit the contractor to
purchase items from the Army Working Capital Fund at standard prices and to
repair or replace unserviceable or excess items from Army units. The
alternative had practical disincentives and to include the alternative would not
provide as much of an incentive for the contractor to efficiently manage
inventory, but would tie up operating funds, and the Army might be left with
large amounts of unused inventory if the contractor were permitted to obtain
parts from other sources. The Office of General Counsel recommended the
Army pursue legislation to permit decapitalization, which would permit the
contractor to receive the inventory as Government-furnished property.

Issue B: Army Audit Agency Review
Comment 1. The evaluation gave the AAA and the Auditor General a complete
pass in the face of overwhelming documentation to the contrary.

Evaluation Response. The report addresses the results of our evaluation of the
AAA role in the Apache PVS review in report Appendix I.

Comment 2. Why does the Inspector General of the Department of Defense
believe that what the AAA conducted was not an independent review?

Evaluation Response. AAA provided consulting work for which the client
determined the nature and scope of the work to be performed. Government
Auditing Standard 3.17 establishes external impairments, such as external
interference with the selection or application of audit procedures, as being an


                                    51
impairment to auditor independence. As such, in consulting engagements where
the client and not the auditor determines the nature and scope of the work, the
Government Auditing Standards independence requirements are not met.

Circular A-76 requires that the Government cost estimate be certified in writing
by the agency’s Circular A-76 Independent Review Officer or designee, as
being in full compliance with procedures and requirements described in the
supplement to Circular A-76. According to personnel from the AAA Policy and
Operations Management Directorate, the Installation Studies Division of the
Installation Management Directorate is the independent reviewer for in-house
cost comparison estimates. When any other directorate or division does an
in-house Government estimate, that estimate is not an independent review
envisioned in the Army and AAA regulations. Therefore, the AAA did not
issue any written documentation that the AAA provided an independent review
or written certification of the Government cost estimates.

Army Regulation 5-20 and AAA Circular 36-10, “Audit Guide for Reviewing
Commercial Activity Cost Comparisons,” assigns independent reviews of the
Army’s Circular A-76 proposals to the AAA. Army Regulation 5-20 and Army
Pamphlet 5-20 require the AAA to be an independent reviewer and to review the
in-house Government cost estimates for functions with more than 65 civilian
full-time equivalents. The review must be completed before the proposal is
submitted to the contracting official. According to AAA, the AAA Installation
Studies Directorate performs the Army’s Circular A-76 independent reviews.
The directorate actually reviewed in February 2000 a draft of the PWS for the
Apache, after the waiver request had been submitted to the Assistant Secretary
of the Army. The review was, however, suspended when AAA was told that
the PVS initiative had been suspended because of legal issues. The AAA
independent review prior to submission of the Government cost estimate to the
contracting officer did not occur. Also, according to AAA, because the
Acquisition, Research, and Development Directorate and not the Installation
Studies Directorate performed the AAA waiver review, the review did not
constitute the independent review the Army and AAA regulations required. The
AAA involvement occurred at a point in time different from the Circular A-76
required independent review.
Furthermore, AAA could not have performed the independent review function
as the Government proposal was based upon budgetary estimates. The
Government never prepared a management plan or developed a most efficient
organization. AAA could not make a determination that the proposed most
efficient organization and in-house cost estimate were adequate to perform the
PWS because the Government proposal was not based on a most efficient
organization and an in-house cost estimate, which was based on the staffing and
other costs reflected in the most efficient organization and management plan.
Consequently, AAA could not perform the type of independent review required
for Circular A-76 cost comparisons.

Comment 3. Would the Department of Defense Inspector General have treated
the AAA differently if we had determined it was an independent review in lieu
of a consulting report?




                                   52
Evaluation Response. We would have treated AAA differently if AAA
performed an independent review or audit rather than consulting reviews. In an
independent review or audit, AAA must follow the Government Auditing
Standards and American Institute of Certified Public Accountants standards. In
consulting services, AAA Regulation 36-68 allows AAA to follow selected
sections of the Government Auditing Standards and American Institute of
Certified Public Accountants standards. AAA reviews are subject to
AAA Regulation 36-1, which is the Army’s Management Control Process.
Consulting services are not subject to AAA Regulation 36-1. In consulting
engagements, the client determines the nature and scope of the engagement. In
an independent review, the guidance requires the independent reviewer to
determine the nature and scope of the engagement.

Comment 4. Did AAA have an obligation in their consulting services to
present accurate and truthful information? Why did not the Department of
Defense Inspector General review AAA actions?

Evaluation Response. AAA had an obligation to present accurate and truthful
information, and we did review AAA actions. AAA Regulation 36-68 and the
Government Auditing Standards require that the AAA obtain sufficient relevant
data to afford a basis for its conclusions and recommendations; seek to
accomplish the review [consulting] objectives established with the client;
establish written or oral understanding about the responsibilities of AAA and its
client about the nature, scope, and limitations of the review [consulting]; and
communicate with the client. Our evaluation concluded that most of AAA
consulting reports had adequate disclosure of the limitations on the data
presented, but that additional disclosures should have been made to better
inform decision makers.

Changes Made to Report in Response to Comments on Issue B. We added a
statement clarifying that the AAA in most of its consulting reports did disclose
limitations on the data presented, but additional disclosures should have been
made to assist the decision makers. We also added a section to the report that
explains more fully that the AAA did not perform an independent review of the
Government cost estimate as defined in Army Regulation 5-20.

Issue C: General Accounting Office Decisions
Comment. The Department of Defense Inspector General ignored the General
Accounting Office decisions on a number of directly pertinent issues.

Evaluation Response. The General Accounting Office and Comptroller
General decisions were not ignored during the review. We reviewed decisions
that dealt with most efficient organization and conflicts of interest. All of the
decisions we reviewed were the result of protests made after Circular A-76 cost
comparison determinations were made, or in response to a decision to cancel a
solicitation. No General Accounting Office or Comptroller General decisions
on Circular A-76 waivers came to our attention. However, the following are
some of the more important decisions that came to our attention. While related,
the decisions were not included in the draft report because the decisions were
not needed to support the finding.


                                    53
       DSZ/Baker LLC; Morrison Knudsen Corporation, B-281224,
January 12, 1999. The Comptroller General sustained the protest. The
Comptroller General determined there was significant conflict of interest by the
evaluators, and that the agency evaluation was invalid and did not furnish a
proper basis for cancellation of the solicitation.

        Aberdeen Technical Services, B-283727.2, February 22, 2000. The
Comptroller General sustained the protest of Aberdeen Technical Services
against the Department of the Army because the in-house estimate failed to
include all costs for key personnel required in the solicitation, the agency
improperly disallowed a price reduction, and the Army failed to determine
whether the most efficient organization offered the same performance and
quality levels proposed by the “best value” contractor.

       Jones/Hill Joint Venture Costs, B-286194.3, March 27, 2001. The
Comptroller General found that the Navy accepted without adequate analysis
unsupported claims the team made regarding the ability of the Government’s
most efficient organization to achieve the same level of performance and
performance quality as the private-sector proposal.

         Jones/Hill Joint Venture, Decision B-286194.4, B-28619.5, and
B-286194.6, December 5, 2001. The protestor challenged the Navy’s
Circular A-76 cost comparison study that concluded an in-house performance of
base operations at a Navy base was more economical than contractor
performance. The Comptroller General determined a conflict of interest existed
because a Navy employee and a private sector consultant wrote and edited the
PWS and then prepared the in-house management plan; the independent review
certification that the Government could perform the functions as stated in the
PWS, and the costs in the in-house estimate, were not supported; the personnel
cost in the Government cost estimate did not include the cost of personnel
outside the most efficient organization that would be used to accomplish the
requirements in the PWS; and the Government’s most efficient organization was
not adjusted to account for several strengths in the selected private sector
proposal. The Comptroller General sustained the protest and recommended that
the Navy issue a new PWS, prepare a new management plan with personnel not
involved in drafting the PWS and certified with supporting documentation,
solicit new proposals from the public, and perform a new cost comparison based
on the new PWS.

       Department of the Navy Reconsideration, B-286194.7, May 29, 2002.
The Navy requested that the Comptroller General reconsider its decision in the
Jones/Hill Joint Venture protest, B-286194.4, B-28619.5, and B-286194.6, in
which the Comptroller General sustained the Jones/Hill Joint Venture protest
challenging the Navy’s Circular A-76 review to perform base operations and




                                   54
support services at a Navy base. The Comptroller General affirmed its decision
but modified its recommendation to reflect only prospective application of the
conflict of interest portion of the decision.

Issue D: Senior Official Allegations
Comment 1. Two senior officials named in the allegation were cleared by the
Inspector General of the Department of Defense. Is it standard practice to just
review the allegation and not follow up with the whistleblower at all?

Evaluation Response. The initial review by the Office of Departmental
Inquiries, Office of the Inspector General, Department of Defense conducted of
the allegations of the Army senior officials named in the Defense Hotline
allegation disclosed no apparent violation of law or regulation.
Comment 2. The Audit section of the Department of Defense Inspector
General did not review actions of the Army Comptroller in determining
potential for conflicts of interest. Why did audit management not refer it back
to Departmental Inquiries?

Evaluation Response. On December 16, 2002, additional information provided
by the Defense Hotline complainant of potential conflicts of interests and bias by
senior officials was provided to the Office of Departmental Inquiries for their
review.

Issue E: Audit Versus Evaluation
Comment. Why was the report classified as an evaluation report instead of an
audit report? Is there a difference between an audit report and evaluation
report? Does an audit report require higher standards than an evaluation report?
Is an evaluation report subject to outside peer review such as those recently
performed of the Department of Defense Inspector General by the Department
of Health and Human Services and Internal Revenue Service? Why were the
objectives of the evaluation changed?

Evaluation Response. The decision to classify this report as an evaluation
report is consistent with the long-standing practice of the Office of the Assistant
Inspector General for Auditing for issuing evaluation reports on the results of
reviews performed of the Service Audit Agencies, including the AAA. This
review, in part, covers an evaluation of AAA actions.

Audits are performed in accordance with the Government Auditing Standards
promulgated by the Comptroller General of the United States. Evaluations are
performed in accordance with standards established in the Office of the
Inspector General of the Department of Defense Assistant Inspector General for
Auditing Handbook. The Handbook establishes the same guiding principles for
planning, conducting, and reporting the results of evaluations as apply to audits.
These principles include the requirement that all evaluation findings and
conclusions be supported by sufficient, competent, and relevant evidence. An
expectation exists that similar high standards should be applied to both audit and
evaluation reports. Both audit and evaluation reports go through the same level


                                    55
of quality control reviews before issuance, and both types of reports require that
any scope limitations and Standards limitations be disclosed in the report.
Government Auditing Standard 7.14 requires that the report disclose any
significant constraints imposed on the audit approach by data limitations or
scope impairments. That Government Auditing Standard is part of our standard
for evaluations.

Outside peer reviews, such as those performed by the Treasury Inspector
General for Tax Administration [Internal Revenue Service] in 2000 and the
Department of Health and Human Services Inspector General in 2001 were
performed in accordance with guidance contained in the President’s Council on
Integrity and Efficiency “Guide for Conducting External Quality Control
Reviews of the Audit Operations of Offices of Inspector General.” Peer
reviews cover audits only and do not cover other types of reviews such as
evaluations and investigations Offices of the Inspector General perform.

This review was first announced July 19, 2000. The announcement states that
the objective was “to evaluate the allegations that the Army’s assessment of an
unsolicited proposal for the Apache Helicopter Prime Vendor Support Program
was biased in favor of keeping Apache helicopter support in-house.” The
review was reannounced September 18, 2000, with a revised objective. The
revised objective was “to evaluate the adequacy of management controls to
preclude potential conflicts of interest and ensure the integrity and inclusiveness
of data used for management decisions.” The reannouncement also states that
we would coordinate the review with the General Accounting Office and the
Army Audit Agency. The announced objectives were revised because of new
information obtained after the original announcement. The information
included:

   •   Obtaining knowledge of the General Accounting Office involvement in
       auditing the Apache PVS program. The General Accounting Office
       issued a report in July 1999 without recommendations, stating that
       several analyses were in progress within the Army. The General
       Accounting Office representatives advised us that the FY 2001 Defense
       Authorization Act, when approved, would require that the General
       Accounting Office review the logistics support for the Apache helicopter.
       (The General Accounting Office subsequently issued Report
       No. GAO-01-630, ”Defense Logistics: Information on Apache
       Helicopter Support and Readiness,” July 17, 2001, in response to the
       requirement.) The General Accounting Office also advise us that they
       intended to follow up on the analyses in progress.

   •   A Director, Departmental Inquiries determination that no apparent
       violation of law or regulation by the Army Comptroller and previous
       commander of AMCOM was present.

   •   An in-progress Under Secretary of Defense (Acquisition, Technology,
       and Logistics) memorandum that directed the Army to continue the
       competitive process.




                                    56
Because of the new information, a decision was made to focus the review on the
adequacy of management controls to preclude potential conflicts of interest and
ensure the integrity and inclusiveness of data used for management decisions.

Issue F: Circular A-76 Waiver Evaluation Biased
Comment. Why were the allegations that the Circular A-76 waiver evaluation
was biased not addressed in the report?

Evaluation Response. We referred to the Office of Departmental Inquiries
additional information provided by the Defense Hotline complainant of bias by
senior officials. With respect to our evaluation, we could not prove that those
employees involved disclosed or transferred contractor proprietary data to
employees involved in preparing the Government proposal or incorporated such
data into the Government proposal. We did note, however, that individuals had
an opportunity to disclose or transfer data as a result of the multiple
responsibilities assigned to three DoD employees. We also identified in the
report whether the employees were “affected” employees or part of an
organization that was affected if the Apache support was contracted out. The
report recommends that policies that ensure segregation of duties for
maintaining adequate management controls and avoiding the appearance of
possible conflicts should be implemented.

Issue G: Adequacy of Circular A-76 Waiver Guidance
Comment. Why does the Department of Defense Inspector General believe that
since the waiver was based on the Government having no realistic expectation of
winning a formal A-76 competition, the cost comparison principles contained in
the A-76 circular did not constitute adequate guidance?

Evaluation Response. Circular A-76 establishes policies for conducting cost
comparisons that will determine whether commercial activities should be
performed in-house or by the private sector. As discussed in the DoD interim
guidance of April 3, 2000, a Circular A-76 waiver applies to the entire
Circular A-76 cost comparison process. The Circular and the Army’s
implementing guidance provide that a waiver for a cost comparison can be
approved if the Service Assistant Secretary determines that a conversion of an
in-house function to contract would result in significant financial or service
quality improvement, or no reasonable expectation exists for the in-house
winning competition under the Circular A-76 cost comparison process. Our
report concludes that little statutory or regulatory guidance was present that
pertains to Circular A-76 waivers at the time of the PVS program review, and
recommends that the Deputy Under Secretary of Defense for Installations and
Environment obtain additional guidance from the OMB regarding Circular A-76
waivers.




                                   57
Issue H: Performance Work Statement
Comment 1. The Government required preparing a PWS. How can the
Government be excused for not preparing an adequate proposal to the PWS?

Evaluation Response. The Government entered into negotiations with the
contractor, concluded a PWS, and obtained contractor prices based on the PWS.
The Government did not use the PWS for determining the Government’s costs,
nor did the Government prepare a most efficient organization. To expedite the
process, the Government used the PVS baseline budget estimate. The
Circular A-76 cost comparison process, which requires issuance of a PWS and
Government and contractor proposals based on PWS requirements, is not
applicable to waivers. No adequate guidance that pertained to Circular A-76
waivers existed, particularly with respect to a common requirements baseline.
The report recommends that the Deputy Under Secretary of Defense for
Installations and Environment obtain from OMB clarifying guidance that
includes a requirement for a common requirements baseline for preparation and
comparison of Government and contractor costs.

Comment 2. The Government proposal was based on a budget estimate, which
was understated and benefited the Government.

Evaluation Response. The guidance from the General Officer Steering
Committee to the PVS review IPT was to produce a specific level of savings
with no additional investment of funds beyond the funding level in the then-
current year Budget Estimate Submission and Program Objective Memorandum.
Evaluating the budget estimate was outside the scope of our review. Funding
priorities are an Army prerogative.

Comment 3. The statement in the draft report that the Army Deputy Chief of
Staff (Operations and Plans) identified the need for additional services
(engineering, etc.) is an incorrect statement. The need was already identified in
the PVS contract and the PWS. If there were new requirements, they would
have to be added to both proposals, therefore the draft report’s conclusion is
incorrect.

Evaluation Response. We agree that no new requirements existed. We revised
the statement in the report that the Army Deputy Chief of Staff (Operations and
Plans) identified the need for additional services. The Army Deputy Chief of
Staff (Operations and Plans) confirmed, but did not identify, the need for
additional services.

Comment 4. How was the Government able to take credit for savings
initiatives it could not support?

Evaluation Response. Adjustments were made for savings initiatives. The
oversight process worked to the extent that an effort was made to validate and
equalize the proposals.

Comment 5. Once the performance scope was equalized, why was it not
adequate for Circular A-76 waiver purposes?


                                   58
Evaluation Response. The Army cited several reasons for not accepting the
contractor proposal, including lack of currency for the 3-year-old cost data,
questions on the impact of decapitalization of the Army Working Capital Fund,
and the Army legal counsel belief that the Army may need to undertake a
Circular A-76 review.



Issue I: Army Audit Agency Allegations
Comment 1. The $14.5 million for modernization through spares exceeded the
$10 million threshold and thus, by itself, could have affected the decision.
Also, the AAA did not have adequate support. Since the draft evaluation report
included the AAA statements without comments, does the Inspector General of
the Department of Defense agree with the AAA actions?
Evaluation Response. The $10 million threshold does not apply to individual
items, but to the total cost difference between the contractor and the
Government proposal. Our evaluation objective was to evaluate the adequacy of
management controls in place. The purpose of Appendix I is to present what
AAA did in the Circular A-76 waiver review process. The report states the
limitations cited by AAA in accepting the $14.5 million. Our review of the
AAA working papers disclosed some additional concerns by AAA that were not
identified in the AAA consulting report. The AAA should have disclosed the
additional concerns in their consulting reports.

Comment 2. On the pipeline inventory, the draft evaluation report included
recitation of the AAA review of the matters without comment. Does the
Inspector General of the Department of Defense agree with the AAA? The
statement in the draft report that “a scrub of the data was not done” is untrue.
The Procurement Contracting Officer provided the AAA with data to support
the $143 million and it was ignored by the AAA and the Inspector General of
the Department of Defense. Why did the Inspector General of the Department
of Defense condone this? The AAA had no support for the $180 million used in
the AAA consultant report.

Evaluation Response. We neither agree nor disagree with the AAA
conclusions in Appendix I. We reiterated AAA conclusions on the pipeline
inventory because their review was germane to the Defense Hotline allegation.
We did not state that a scrub of the data was not done. The AAA attempted to
scrub the data and concluded that a complete scrub would require 60 to 180 days
to determine the validity of the items. In the interim, the AAA used the
mid-point and made full disclosure of the action in their consulting report. The
Procurement Contracting Officer provided data to the AAA and the Inspector
General of the Department of Defense that showed the valuation of the pipeline
as of September 1998 as $110 million, with an additional $33.9 million that was
planned to be purchased but not yet on contract. Combined, the total inventory
would have been $143 million. However, the Defense Hotline allegation states,
“the A-76 waiver included $110 million for pipeline costs . . . .” and “the
amount promised to the contractor for the pipeline was $110 million . . . .”
The $110 million figure is the figure that was in question during conversations


                                   59
with the Procurement Contracting Officer and the figure that was the basis of
our review. The AAA working papers, based on discussion with the
Procurement Contracting Officer, show the basis for the initial $110 million
figure. However, the AAA noted that the Procurement Contracting Officer did
not include initial spare funds and Army Communications Electronics Command
due-in inventory. Subsequently, an Army Working Capital Fund working group
was established to reach a consensus on the value of the pipeline inventory.

Comment 3. The use of the term “miscommunication” in the report statement
that during the AAA review of Life-Cycle Cost Reduction that there was
miscommunication with the engineer on the Technical Evaluation WIPT is
questionable. Does the Inspector General of the Department of Defense
consider it good practice for AAA auditors with no technical expertise to
reverse judgment of technical experts?

Evaluation Response. The term “miscommunication” was derived from an
e-mail sent by the Procurement Contracting Officer to the AAA on July 12,
1999, and an e-mail between an engineer who was a member of the technical
evaluation team and the Procurement Contracting Officer. The Procurement
Contracting Officer was describing an apparent misunderstanding between the
AAA auditor and the engineer. The Inspector General of the Department of
Defense does not consider AAA auditors with no technical expertise reversing
the judgment of technical experts a good practice. However, the AAA, as
stated in the draft report, reviewed seven projects and held discussions with an
engineer on the original Technical Evaluation WIPT prior to the action. When
the second Technical Evaluation was performed, the AAA changed its position.

Comment 4. The report’s discussions of the AAA review of Contractor Field
Support Representatives presented what happened and provided no comment on
whether the AAA actions were adequate or appropriate. The complainant
disagreed with the AAA proposition that numbers were unsupported and states
that numbers were supported in element-by-element cost breakdown of
negotiations. Why did the AAA make adjustment to the Government figures
without a shred of detailed backup but want support for contractor numbers that
have “greater fidelity and reliability?”
Evaluation Response. We neither agree nor disagree with the AAA inclusion
or exclusion of Contractor Field Support Representatives and the related costs.
The AAA repeatedly stated in briefings and consulting reports that the
proponent of the flying hour program or the Circular A-76 approval authority is
in the best position to decide if normalization adjustments were needed. When
the operational end-state was presented, the AAA added $51 million for
Contractor Field Support Representatives to the Government cost estimate.

The Procurement Contractor Officer claim is that the $257.4 million engineering
support added to the Government cost estimate was fully supported. The AAA
considered that the Procurement Contracting Officer adjustment to the
Government cost was not adequate or supported. The AAA stated that the
amount provided by the Procurement Contracting Officer included costs for
postproduction support system, technical personnel, and other miscellaneous
costs. AAA was not able to break out the amount for the Contractor Field
Support Representatives. An AAA senior official stated that they reduced the


                                   60
$257.4 million figure because that amount was inaccurate, unsupported, and
unreasonable.

The AAA and CEAC indicated that the waiver amount was reduced primarily
because the waiver adjustments tried to force one Apache support approach to
match another by comparing “how to” and not focusing on the “what” or
desired output. The AAA and CEAC determined that the end product was
flying hours and the how to would be left to individual offerors. Regarding
acceptance of contractor numbers, the AAA did accept cost data from three
contractors to derive the $170,000 contractor support cost per Apache unit used
to calculate the $51 million added to the Government proposal.

Comment 5. Why does the Inspector General of the Department of Defense
believe that the methodology and conclusions of the AAA do not represent
evaluation bias? The draft report’s recitation of the AAA response is not an
explanation of why there is not bias. The draft report mitigated the AAA
conduct by stating that there was a lack of guidance.

Evaluation Response. The AAA was not tasked to perform an independent
review of Circular A-76 cost elements. Specific cost elements for a
Circular A-76 waiver are not defined. The AAA provided consulting reports to
Assistant Secretaries of the Army and later, briefing charts, to the Under
Secretary of the Army. In those reports and briefing charts, the AAA usually
disclosed the limitations of its data and in some cases qualified its conclusions.
The AAA repeatedly asked for guidance. For example, in its reports and
briefing charts, the AAA states that the proponent of the flying hour program or
the Circular A-76 approval authority should decide if the normalization
adjustments were needed to satisfy the flying hour requirements. In Appendix I
we state where the AAA should have provided more disclosure on the
limitations and assumptions of its conclusions to the Under Secretary of the
Army.

Comment 6. The AAA first briefing included budgeted numbers even though
the AAA report stated that Program Objectives Memorandum promises were not
being met and actual costs would be higher. The AAA knew this and ignored
it.

Evaluation Response. The AAA did not ignore the Program Objectives
Memorandum. The Program Objectives Memorandum and Program Objectives
Memorandum efficiencies were discussed in various consulting reports and
briefings. In the March 1999 consulting report, the AAA determined that the
Government proposal could support the requirement of 120,000 flying hours “if
funding is available and uninterrupted.” Army Operating Tempo funds would
have to be provided directly to AMCOM, otherwise AMCOM could not
implement the Government proposal concept within the current funding
guidance. In a July 1999 briefing on Program Objectives Memorandum
efficiencies, the AAA stated that 11 of 14 Program Objectives Memorandum
efficiencies reviewed indicated that fewer savings could be achieved. Further,
the AAA stated that it could not relate the savings from the efficiencies to the
Apache. The AAA September 1999 briefings also addressed the Program
Objectives Memorandum limitations.



                                    61
Comment 7. The CEAC and AAA injected a questionable budget change into
the decision process. Why did not this merit a investigation by the Inspector
General of the Department of Defense?

Evaluation Response. Issues involving CEAC and AAA inclusion of data in
the budget that produced a savings (reduced Apache flying cost) in the
Government proposal were addressed in the report. For example, the report
addressed issues relating to savings attributed to implementation of a single
stock fund initiative, which combined wholesale and retail stock funds into a
single stock fund

Changes Made to Report in Response to Comments on Issue I. We
expanded our conclusion on AAA actions to state that most of the consulting
reports and briefings AAA provided disclosed limitations on the data presented
but that additional disclosures should have been made to the assist decision
makers.

Issue J: Conflict of Interest Allegation
Comment. In the opinion of the Inspector General of the Department of
Defense, ask legal counsel if it would be appropriate to allow a member of the
Government team who participated in the evaluation of both proposals to act as
an advocate for partly updating the Technical Evaluation.

Evaluation Response. As stated in the report, the actions were not appropriate
for Employee A. We included a recommendation for segregating the duties.

Issue K: Safety Issues
Comment. Sustainment of system technical support funds has been
programmed to provide engineering support to the system. As the amount of
these funds put on the contract has decreased or even been eliminated, safety
issues that impacted the helicopters and the soldier that fly them increased.

Evaluation Response. This was outside the scope of our review. Funding
priorities are an Army prerogative.




                                   62
Appendix K. Army Aviation and Missile
            Command Comments on Draft
            Evaluation Report and Evaluation
            Response
   In addition to the official Army comments received from the Assistant Secretary
   of the Army (Acquisition, Logistics, and Technology), the Deputy to the
   Commanding General AMCOM submitted comments and the Chief, Internal
   Review and Audit Compliance AMC endorsed the comments. The complete
   text of the comments is in the Management Comments section of the report.
   The following summarizes the comments and our response to the comments.

   Command Analysis Directorate
   Comment 1. The Command Analysis Directorate disagreed with finding A and
   stated that the report conclusions that instances existed where inadvertent
   disclosure of contractor information could have occurred were not supported
   and did not occur.

   Evaluation Response. Employee assignments identified in the report were not
   consistent with applicable Federal and DoD guidance as they related to conflicts
   of interest and separation of duties and, in our opinion, demonstrated
   opportunities where inadvertent disclosure of contractor information could have
   occurred. As stated in the finding, we did not note any actual instances of
   disclosure of contractor proprietary data to employees involved in preparing the
   Government proposal or incorporating such data into the Government proposal.

   Comment 2. The Command Analysis Directorate disagreed with finding B and
   stated that the finding was an opinion-based judgment because one can do
   realistic and fair variable cost analysis. The CEAC and AAA reviews were
   independent. The Circular A-76 waiver request had no assurance of realism and
   fairness, but that did not occur for the reasons stated in the draft report. The
   lack of assurance of realism and fairness occurred because the Circular A-76
   waiver was not coordinated and staffed with the Cost WIPT, the Business
   WIPT, and the OIPT before being submitted to the Army’s senior
   leadership/decision authority with any accompanying comments acknowledging
   the existence of the significantly differing opinions about the cost comparison
   held by the members of the Cost WIPT. The draft report presentation of the
   AMCOM review implies that the Employee A review of the cost used in
   preparing the Circular A-76 waiver was construed by some as an independent
   review. The Employee A review was never advertised to meet a higher level
   requirement other than to objectively comment on the rationale and auditability
   of the Government proposal.

   Evaluation Response. Part II of Circular A-76 provides generic and
   streamlined procedures for preparing Government cost estimates and cost
   comparison guidance for meeting the requirements of the Circular. Specific
   guidance did not exist for a Circular A-76 waiver.


                                      63
As previously discussed, CEAC or AAA did not perform any independent
reviews of the Government cost estimate. Circular A-76 and Army regulations
require independent review of the Government cost estimates prior to
submission to the contracting officer in Circular A-76 cost comparison reviews.
According to Army regulations, AAA is the independent reviewer of
Government cost estimates for the Army. CEAC was not tasked to review the
Government cost estimate, but simply to review the Government cost estimate
as part of the Business WIPT. AAA reviews occurred after the Circular A-76
waiver request had been submitted to the Army’s decision makers. Also, AAA
and CEAC told us during the evaluation that their reviews of the Government
cost estimate did not constitute the independent review that Circular A-76
requires.

The Command Analysis Directorate agreed with our conclusion statement that
“no assurance existed that costs used in preparing the Circular A-76 waiver
request were realistic and fair.” The directorate stated that the basis for the
statement should be that the Project Manager/PEO did not effectively coordinate
and staff the waiver before it was submitted. We did not include the Project
Manager/PEO input in the draft report because we did not have documentation
to determine if staffing and coordination was or was not done before the waiver
submission.

The report states that the Employee A review did not constitute an independent
review. We did not infer or imply that the Employee A review was advertised
as an independent review.




                                   64
Acquisition Center
Comments. The comments generally state that the draft report: attributes
improper actions to lack of guidance when, in fact, failure was the result of not
following existing guidance; did not address the direction, advice, oversight
higher-level headquarters personnel and AAA provided in the conduct of the
Circular A-76 review; states that no independent reviews were performed, yet
AAA and CEAC were involved in the process; states that the Government did
not propose to the PWS when Circular A-76 requires equal statements of work;
and did not address the specific allegations of the impact or validity of
decaptialization of the Apache inventory from the Army Working Capital Fund
and the actions of AAA.

Evaluation Response. As previously discussed, the Circular A-76 cost
comparison process is not applicable to Circular A-76 waivers. While it
provides guidance on the cost comparison process that would be subject to the
Administrative Appeals Process, Circular A-76 does not provide adequate
guidance for processing and comparison of costs for Circular A-76 waivers.

The report did not address the oversight the Acquisition Center or headquarters
personnel provided on the PVS process. Where specific allegations were raised
regarding high-level personnel, that review was primarily handled by the Office
of Departmental Inquiries, Office of the Inspector General, Department of
Defense. The Office of Departmental Inquiries review of the allegations of the
Army senior officials named in the Defense Hotline allegation disclosed no
apparent violation of law or regulation. On December 16, 2002, additional
information provided by the Defense Hotline complainant of potential conflicts
of interests and bias by senior officials was provided to the Office of
Departmental Inquiries for their review. The report addresses in Appendix I the
role of AAA.

The AAA did not perform an independent review as defined by Army
Regulation 5-20 and AAA Circular 36-10. AAA provided consulting services
and the AAA standards for performing consulting reviews are discussed in
Appendix I.

During our evaluation, CEAC informed us through interviews and e-mails that it
reviewed the PVS cost baseline and the Government cost estimate as a member
of the Cost WIPT under the Business IPT. As such, the CEAC review did not
constitute the independent review of the Government cost estimate required by
Circular A-76.

The Government prepared a PWS with which the contractor had to abide. The
Government did not use the PWS. To expedite the process, the PEO provided
in November 1997 the Government PVS baseline to AMCOM to prepare the
Government proposal. The Government used the PVS baseline budget estimate
as a starting point. Because the adjusted PVS baseline was used rather than the
PWS to prepare the Government proposal, the contractor and Government
proposals were not comparable. The Circular A-76 cost comparison process is



                                    65
not applicable to waivers. The report recommends that clarifying guidance
addressing Circular A-76 waivers be obtained from OMB.

The scope of the evaluation was to evaluate management controls to preclude
potential conflicts of interest, and ensure the integrity and inclusiveness of data
used for management decisions. As previously discussed, although the scope
was limited, we examined a portion of the Army Working Capital Fund
specifically relating to the surcharge and pipeline valuation, as presented in the
allegation and the Army Comptroller’s review of alternatives to decapitalization.
We also reported the efforts that the Army took to unsuccessfully resolve issues
regarding the Apache inventory in the Army Working Capital Fund. We
addressed the role of AAA in Appendix I.




                                    66
Appendix L. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
 Deputy Under Secretary of Defense (Acquisition Initiatives)
 Deputy Under Secretary of Defense for Installations and Environment
Under Secretary of Defense (Comptroller)/Chief Financial Officer
 Deputy Chief Financial Officer
 Deputy Comptroller (Program/Budget)

Joint Staff
Director, Joint Staff

Department of the Army
Secretary of the Army
Under Secretary of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
 Program Executive Officer, Aviation
Assistant Secretary of the Army (Financial Management and Comptroller)
 Director, Army Cost and Economic Analysis Center
Assistant Secretary of the Army (Installations and Environment)
Commanding General, Army Materiel Command
 Commanding General, Army Aviation and Missile Command
Assistant Chief of Staff for Installation Management
Deputy Chief of Staff (Logistics)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Logistics Agency




                                          67
Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Finance
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
 Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
 Government Reform




                                         68
Deputy Under Secretary of Defense for
Installations and Environment Comments
                                         Final Report
                      v
                                          Reference




                                         Clarifying
                                         footnote
                                         added




                                         Revised to
                                         suggested
                                         terminology




                     69
Final Report
 Reference




Page 17


Page 17

Revised




Page 26




Revised`




               70
71
Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) Comments




                       72
     Final Report
      Reference




     Redirected
     Page 17




     Redirected
     Page 17




     Page 26

     Redirected
     Page 26



     Pages 47-51
     Page 51
     Appendix L




73
Army Aviation and Missile
Command Comments




                     74
75
Final Report
 Reference




Page 19
Page 25




               76
     Final Report
      Reference




     Page 22




77
78
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense, prepared this
report. Personnel of the Office of the Inspector General of the Department of
Defense who contributed to the report are listed below.

Shelton R. Young
Dennis E. Payne
Hassan Soliman
Henry Y. Adu
Debra E. Alford
Beverly L. Cornish
Elizabeth A. Denny
Sharon Carvalho
